<html>
<title> - OVERSIGHT: MODERNIZING OUR NATION'S INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 115-7]
[From the U.S. Government Publishing Office]








                                                          S. Hrg. 115-7

                        OVERSIGHT: MODERNIZING 
                      OUR NATION'S INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

















         Available via the World Wide Web: http://www.fdsys.gov
                                     _________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-729 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JEFF SESSIONS, Alabama               KIRSTEN GILLIBRAND, New York
JERRY MORAN, Kansas                  CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
DAN SULLIVAN, Alaska                 KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 8, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Panos, William T. ``Bill,'' Director, Wyoming Department of 
  Transportation.................................................    14
    Prepared statement...........................................    16
    Response to an additional question from Senator Barrasso.....    24
    Responses to additional questions from Senator Carper........    24
    Response to an additional question from Senator Ernst........    26
    Responses to additional questions from Senator Whitehouse....    27
McNulty, Michael, General Manager, Putnam Public Service 
  District, West Virginia........................................    29
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Carper...........................................    65
        Senator Ernst............................................    66
    Response to an additional question from Senator Duckworth....    67
Bobbitt, Cindy R., Commissioner, Grant County, Oklahoma..........    71
    Prepared statement...........................................    73
    Responses to additional questions from Senator Carper........    85
    Response to an additional question from Senator Ernst........    87
Pratt, Anthony P., Administrator, Delaware Department of Natural 
  Resources and Environmental Control; President, American Shore 
  and Beach Preservation Association.............................    89
    Prepared statement...........................................    91
    Responses to additional questions from Senator Carper........    98
    Response to an additional question from Senator Whitehouse...   103
Bhatt, Shailen P., Executive Director, Colorado Department of 
  Transportation.................................................   104
    Prepared statement...........................................   106
    Responses to additional questions from Senator Carper........   111
    Response to an additional question from Senator Ernst........   113
    Responses to additional questions from Senator Whitehouse....   114

 
           OVERSIGHT: MODERNIZING OUR NATION'S INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Sanders, Whitehouse, Gillibrand, Booker, Duckworth, and 
Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    President Trump has made improving our Nation's 
infrastructure a top priority. Infrastructure is critical to 
our Nation's prosperity.
    The Senate Environment and Public Works Committee has 
jurisdiction over our Nation's highways and roads, its locks 
and dams, and its ports. These things allow for American goods 
to go from the heartland to the coasts, and even overseas. They 
allow for flood protection for both rural and urban communities 
that save lives.
    In addition, our Committee has jurisdiction over the 
environmental laws that impact the modernization of 
infrastructure. Doesn't matter whether the setting is urban or 
rural; rules and regulations can halt and delay the 
modernization of infrastructure, and the impact is particularly 
counterproductive if they are applied without understanding the 
difference between urban and rural.
    Our Committee has members from both urban and rural areas. 
The members of this Committee represent New York City and 
Newport, Rhode Island; Nebraska City, Nebraska and Natchez, 
Mississippi; Wheatland, Wyoming, and even the town of Wyoming, 
Delaware. The diversity of these cities and towns makes it 
clear that solutions to address and pay for fixing our Nation's 
crumbling roads, bridges, and dams cannot be one size fits all. 
What works for Baltimore, Maryland, might not work for Baggs, 
Wyoming.
    Big ticket projects on the scale of the Big Dig in Boston 
that cost billions of dollars or even projects that cost 
hundreds of millions of dollars are rare in rural and small 
States. Funding solutions that involve public-private 
partnerships--as have been discussed by Administration 
officials--may be innovative solutions for crumbling inner 
cities but do not work for rural areas, as today's testimony 
will show.
    As was stated in the written testimony submitted today on 
behalf of Wyoming, Idaho, Montana, North Dakota, and South 
Dakota, ``Public-private partnerships and other approaches to 
infrastructure investment that depend on a positive revenue 
stream from a project are not a surface transportation 
infrastructure solution for rural States.''
    This Committee has a number of members who represent small 
rural States: Delaware, Alabama, Alaska, Iowa, Nebraska, Rhode 
Island, Vermont, just to name a few. We didn't forget West 
Virginia. I want to ensure that the voice of these States is 
not lost in the overall discussion of how to fix our Nation's 
infrastructure. I want to work with my colleagues to address 
issues important to our States while also not ignoring the 
legitimate needs of large metropolitan areas, as well.
    Stated in the written testimony submitted by the five 
Western States that I referenced earlier, Federal highways in 
our rural States enable ``agriculture, energy, and natural 
resource products, which largely originate in rural areas, to 
move to national and world markets.'' This is true. It makes no 
sense that to simply fix the roads and ports in our urban areas 
while ignoring the roads and inland ports in our rural areas 
that allow for products from Wyoming, Nebraska, or Iowa to get 
to the world markets.
    As testimony today will demonstrate, rural water systems 
also have unique challenges. They have been inundated by 
regulations from the EPA which harms their ability to modernize 
and to function. Rural water systems are challenged by the same 
regulations that big city water systems face, yet do not have 
the same resources to comply.
    Any infrastructure solutions this Committee considers 
should help address rural challenges. These challenges include 
funding. Like their road project counterparts, these systems 
are not the best candidates for loans. It is important to note 
written testimony today from Mike McNulty, the General Manager 
of Putnam Public Service District in West Virginia. He states, 
``Due to a lack of economies of scale and lower medium 
household incomes in rural America, water infrastructure is 
often less affordable, a much greater cost per household. This 
means that a water infrastructure project poses a greater 
financial risk compared to the metropolitan project, and very 
importantly,'' he says, ``requires some portion of a grant, not 
just a loan, to make the project feasible. The higher the 
percentage of grants required to make a project work results in 
less money repaid to the infrastructure funding agency and a 
correlating diminution of the corpus fund.''
    So we are going to have to find new ways to help pay to 
modernize these important rural projects. It is my hope that 
this Committee will work to find solutions that not only work 
for urban America but rural America as well. I urge my 
colleagues to work with me in a bipartisan way to find these 
solutions.
    With that, I turn to the Ranking Member for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman. Thank you for 
bringing us together for an important--and I think 
invigorating--hearing.
    I just want to say to our guests from Oklahoma, West 
Virginia, Wyoming, the other Wyoming, and from Colorado by way 
of Delaware, and from Delaware, welcome. We are delighted that 
you are here.
    Mr. Chairman and colleagues, I say this to our guests. 
These folks have heard me say this more times than I want to 
remember, but my dad taught me--born in West Virginia, grew up 
in Virginia--my dad taught my sister and me that things that 
are worth having are worth paying for. That is what he said. 
Things that are worth having are worth paying for. And he used 
to say if you owe somebody money, work three jobs until you can 
pay that off, but you ought to take responsibility for your 
obligations.
    The other thing my dad used to say to my sister and me--we 
would have chores to do, jobs to do around our house and 
garden, so forth--and he always said if a job is worth doing, 
it is worth doing well. From that I took the idea that 
everything I do I can do better. I think that is true of all of 
us. I think that is also true of every Federal and State 
program, infrastructure, roads, highways, bridges, water, 
wastewater, all of those things.
    So my hope today is you will help us sort of think outside 
the box a little bit on how do we pay for this stuff. It is 
easy to come up with ideas on how to spend the money, but it is 
always hard to figure out how we are going to raise that money. 
So we need some help there and then some help in figuring out 
how we get better results maybe for less money or for the same 
amount of money.
    Now my statement. For the record, I have something I want 
to ask unanimous consent that a couple documents, Mr. Chairman, 
be submitted for the record. I hold them in my hand.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you. Thanks so much.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Carper. As I think most of us know, our new 
President has raised the issue of America needing to modernize 
and rebuild aged infrastructure. As a point of concern, 
Democratic Senators, some of us here in this room, recently 
released a blueprint for addressing infrastructure challenges 
at large; not just roads, highways, bridges, but much more 
broader than that, including water and wastewater. I believe 
that members on both sides of the aisle are supportive of 
addressing this problem. This can be one of those issues that 
actually unites us, and at this point in time in our Nation's 
history we could use a few of those, so this is important for 
more reasons than not.
    As a recovering Governor I look at most legislation through 
a particular lens, and the lens that I look at it through is 
how does a particular investment make for a more nurturing 
environment for job creation, job preservation. That is what I 
think about all the time. And in this case they got a bunch of 
factors that impact on a nurturing environment for job 
creation. I just want to mention a couple of them.
    We don't think about this, I don't think, that much: 
quality of our work force, the skills that they bring to the 
workplace is important; affordable energy; safety, public 
safety; the idea of having access to capital, access to foreign 
markets; research and development, investing in the right 
things that actually generate job creation opportunities; tax 
policy; common sense regulations; access to decisionmakers; 
clean air, clean water; predictability. Businesses need 
predictability.
    In 2013 an outfit, an arm of McKinsey, the big consulting 
company, called Global Institute, issued a report they called 
Game Changer in which it analyzes how the U.S. could 
dramatically transform and expand our economy. And one of the 
top game changers that they gave us was infrastructure 
investment, and here is what they said. The report showed that 
we need to invest between $150 billion and $180 billion more in 
infrastructure every year just to make up for years of 
underinvestment and to enable robust future growth. They said, 
the Global Institute told us in their report that if we 
invested at this level, it would add somewhere between 1.4 
percent and 1.7 percent to GDP every year. Almost double GDP 
for the last quarter, if you will. It would create some 1.8 
million new jobs by 2020.
    For a lot of people that are, frankly, on the sidelines, 
would like to go to work, need to go to work, this would be a 
great place for them to go to work, working on these projects.
    In the same report they found that one of the best ways to 
invest and get the most from our dollars is to maintain our 
existing infrastructure. Not just to do big, fancy, new 
projects, but to maintain our existing infrastructure. 
Infrastructure investment is critical for the economy in part 
because the direct jobs that we create in construction, 
restoration work, and displaced workers that we can help get 
back into the work force, which we need to do. But just as 
important is the fact that modern infrastructure helps people 
in businesses move more efficiently.
    Last year, the average commuter, we are told this by Texas 
A&M, every year they give us a new update. They told us we 
wasted 42 hours per person sitting in traffic, not moving. Not 
moving anywhere. And that is sort of a typical, I think that is 
like a work week for a lot of people, just sitting doing 
nothing.
    More modern infrastructure would mean less time, pure 
resources wasted unproductively. Our Nation's health, our 
wealth, and security rely on production and distribution of 
goods and services. Every day people and goods move across an 
array of physical systems which are collectively known as our 
critical infrastructure. The critical infrastructure of our 
country, however, is aging and in need of significant capital 
investments--we all know that--to help our economy continue to 
grow.
    The 2013 infrastructure report card issued by the American 
Society of Civil Engineers, some of them are here today, they 
gave us for roads, dams, drinking water, wastewater a D. D. 
They graded our inland waterways and levees with a D^. The 
ports received a C; bridges received a C+.
    As we hear testimony I am particularly interested in 
hearing the witnesses' thoughts in three key areas. The first 
is that while financing techniques are a tool that may be 
appropriate for some kinds of projects, financing by itself 
will not solve all infrastructure needs regardless of whether 
we are a rural or urban State.
    The second area I hope to hear more about is the need for 
broad investment strategy. And while traditional forms of 
infrastructure like roads and ports are essential to our 
economy, I feel we need more investments to protect our natural 
infrastructure as well, including our shorelines, our dune 
systems, our ecosystem restoration. Without these protections, 
risks to manmade infrastructure significantly increase and in 
many cases become unmanageable.
    Finally, I am interested in hearing how the Federal 
Government--I think we are interested in hearing how the 
Federal Government can be more efficient, as I said earlier, 
with our current funding streams and get the most out of every 
dollar of Federal investment. Infrastructure is a shared 
responsibility with State and local governments and in some 
cases with the private sector, and I want to ensure that we are 
helping State and local governments with this shared burden 
while giving them the flexibility that they need. I also want 
to know how we can make sure that we are prioritizing the most 
critical investments and working to maintain the assets we have 
first before building new assets that we can't afford to 
maintain.
    Finally, I must say no one size fits all approach will work 
to solve this challenge. We have to work in a bipartisan manner 
to really address these concerns. Build consensus on a path 
forward for the shared State-Federal-local government 
responsibility to our economy.
    Last, Mr. Chairman, colleagues, there are a couple of 
people here before us I know pretty well. We welcome all of our 
witnesses, but I especially want to introduce Tony Pratt, 
current Administrator of the Shoreline and Waterway Management 
Section within the Delaware Department of Natural Resources and 
Environmental Control. The current president, I call him Mr. 
President, of the American Shore and Beach Preservation 
Association for our Nation. He will be discussing a wide range 
of water infrastructure-related issues and why protecting our 
natural infrastructure is as important as restoring our roads 
and bridges.
    Shailen Bhatt, to our right, to Tony's left. Shailen comes 
to this hearing as the current Executive Director for the 
Colorado Department of Transportation, stolen from the State of 
Delaware, where he was the Secretary of the Department of 
Transportation. There he led a response to two hurricanes, 
introduced performance management to the agency, reduced agency 
debt by 30 percent while delivering $2 billion of 
infrastructure improvements.
    I wrote one more note here. I said we are not blue States. 
This is for all of us. We are not blue States, we are not red 
States; we are the United States. We got States that are 
largely rural; States that are more urban in nature. The needs 
that we have in our rural States--whether it is water or if is 
transportation--will differ from maybe what we have in our more 
places like where Ben and I come from and represent. But we 
have to look out for each other. We have to look out for each 
other. And if we do that, we will all be ahead in the game.
    Thank you so much. Welcome, everybody.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe, would you like to welcome your Oklahoma 
witness?
    Senator Inhofe. Yes, I would. And let me mention, for the 
benefit of our witnesses and anyone else who might be 
interested, the Commerce Committee and this Committee have nine 
members that are on both, and they are meeting at exactly the 
same time, so if you see members going back and forth, we are 
doing double duty this morning. I think we can do a better job 
of coordinating those committees.
    Anyway, I want to introduce the good looking witness we 
have.
    Senator Carper. I already introduced Tony.
    [Laughter.]
    Senator Inhofe. No, I am real pleased to introduce one of 
our witnesses because I have known Cindy Bobbitt for a long 
period of time. She is a Commissioner of Grant County, 
Oklahoma. She was elected to the Grant County Board 13 years 
ago and currently serves as Chairman of the Board. She has been 
actively involved for the past 8 years with the National 
Association of Counties, serving in many different capacities, 
including Vice Chair of the National Transportation Steering 
Committee. Furthermore, she serves on the Technical Oversight 
Working Group with the Federal Highway Administration Office of 
Safety.
    As you can imagine Commissioner Bobbitt is passionate about 
our Nation's infrastructure needs, and her experience makes her 
an incredibly well qualified and informed witness for this 
Committee.
    Grant County is an extremely rural agricultural county in 
the north central part of Oklahoma that relies heavily on 
proper infrastructure and has many infrastructure needs. In 
fact, they say that Grant County has as many bridges as they do 
people.
    Commissioner Bobbitt knows the issues that rural businesses 
face, as she and her husband run a farm growing wheat, feed 
grains, alfalfa, and cattle. They have deep roots in Oklahoma, 
as their farm has been in their family since the Land Run of 
1893. Commissioner Bobbitt grew up in rural life, driving a 
tractor at age 9, and she bought her first piece of land when 
she was 16 years old. She knows firsthand the importance of 
agricultural industry to Oklahoma's economy and the needs of 
getting those goods to market.
    Commissioner Bobbitt, I want to thank you for being here 
and for coming all the way from Grant County to Washington, DC.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Capito, could I invite you to please introduce your 
witness?
    Senator Capito. Thank you, Mr. Chairman.
    It is a great pleasure for me to introduce my friend, Mike 
McNulty, who is the General Manager of the Public Service 
District of Putnam County, West Virginia. He's testifying on 
the behalf of Putnam County, but also the West Virginia Rural 
Water Association and the National Rural Water Association.
    Mike is known as an expert in our State and really 
throughout the Nation in this area. He received a Bachelor of 
Science from West Virginia Tech, and he has a Master's from 
Marshall University. He served as the General Manager since 
2004, and he was previously the Director of the West Virginia 
Rural Water Association.
    Rural communities--everybody has referenced this--have had 
particular challenges. In West Virginia not only do we have 
rural communities, but we have some tough terrain that poses 
significant challenges for the deployment and the maintenance 
and operation of drinking water and wastewater infrastructure.
    But you know what? Mike has found a way, very creatively, 
in his area to work with the regulatory compliance and 
leveraging the Federal dollars to extend a lot of municipal 
water to a lot of people, and we talked just yesterday. There 
are still some people left that we can't forget about, and we 
won't forget about, but I know he will bring valuable insight 
to this Committee.
    Mike, thank you for coming from West Virginia and the 
others from West Virginia Rural Water Association.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    And I would also like to introduce Bill Panos, who is the 
17th Director of the Wyoming Department of Transportation, 
since October 2015. He is a graduate of California State 
University, where he studied both physics and forensic science. 
His previous work has included engineering and leadership 
positions with the TRW Corporation, the Commonwealth of 
Massachusetts, the State of Washington, and a number of local 
governments.
    Immediately prior to heading WYDOT, he was the Director of 
Wyoming's School Facilities Department for 2 years.
    We will now hear from our witnesses, and we will start with 
Bill Panos, Director of the Wyoming Department of 
Transportation.
    I do want to remind the witnesses that your full written 
testimony will be made part of the official hearing today, so 
please keep your statements to 5 minutes so that we may have 
some time for questions. I look forward to hearing all the 
testimony today, beginning with Mr. Panos.
    Please proceed.

   STATEMENT OF WILLIAM T. ``BILL'' PANOS, DIRECTOR, WYOMING 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Panos. Thank you, Chairman Barrasso, Senator Carper, 
and members of the Committee. I am Bill Panos, Director of the 
Wyoming Department of Transportation. Today I am presenting a 
statement for my own State of Wyoming and the Transportation 
Departments of Idaho, Montana, North Dakota, and South Dakota.
    As Congress considers surface transportation infrastructure 
investment we hope that our comments will enhance understanding 
of transportation challenges facing rural States.
    Let me get right to our key points.
    Federal transportation investment in rural States benefits 
the Nation. Highways in our rural States enable truck movements 
between the West Coast and the large cities of the Midwest and 
the East. They benefit people and commerce at both ends of the 
journey. Our highways enable significant agricultural, energy, 
and natural resource products to move from their rural points 
of origin to national and world markets. Our highways enable 
tens of millions of visitors each year to reach scenic wonders 
like Yellowstone National Park and Mount Rushmore, so those 
highways ensure that tourism dollars are spent in America, 
furthering national economic goals.
    So there is a national interest and plenty of good reasons 
for the Nation to invest in surface transportation in rural 
States. There are needs for surface transportation 
infrastructure investment in rural States as well as in all 
States.
    If Congress advances a surface transportation 
infrastructure initiative, the additional funds would be put to 
good use promptly in Wyoming and other States. They would 
create jobs and provide safety, economic efficiency, and other 
short- and long-term benefits to the Nation.
    Next, we have some thoughts on providing some of those 
benefits.
    Public-private partnerships and other approaches that 
depend on a positive revenue stream are not a surface 
transportation infrastructure solution for rural States. The 
traffic volumes on projects in rural States are low and almost 
never feasible for revenue generation, so rural States are 
unlikely to attract investors for those projects even if any 
project revenues are supplemented by tax credits. Also, with 
sparse populations and extensive road networks the costs per 
capita of paying off principal and interest is high in rural 
States, a deterrent to borrowing for those projects.
    Now, we do not oppose a role for P-3s in improving the 
Nation's transportation network, but they are unlikely to 
result in meaningful surface transportation investment in rural 
States.
    Any surface transportation initiative should strongly 
emphasize formula funding. Using the predominantly formula-
based FAST Act approach to distribution would ensure that both 
rural and urban States are participating substantially in a 
surface transportation initiative. Any surface transportation 
infrastructure initiative should continue the current 
approximate four to one ratio between Federal Highway Program 
funding and Federal Transit Program funding.
    Also, we would have particular concern if in any surface 
transportation infrastructure initiative, any non-formula 
elements were structured in a way that made rural State 
participation unrealistic. New program elements limited to 
extremely expensive projects likely would not be accessible by 
our States, at least in a substantial way. That type of 
initiative may very well lack urban rural balance.
    Strengthening the Highway Trust Fund is a very important 
objective. The Highway Trust Fund and the programs it supports 
are critical to maintain and improve America's surface 
transportation infrastructure. We appreciate that in the FAST 
Act Congress provided financial support to the Trust Fund and 
its programs through fiscal year 2020. Yet without legislation, 
after 2020 the Highway Trust Fund will not be able to support 
even FAST Act Highway and Transit Program levels much less meet 
needs that will grow as the economy grows. So, strengthening 
the HTF--the Highway Trust Fund--is worthy of consideration and 
action.
    While our focus today is on funding and financial issues, 
we also encourage Congress to take steps to increase Federal 
program flexibility and to simplify and expedite program and 
project delivery. We want each program dollar to deliver more 
benefits.
    Before closing I will briefly mention that our rural States 
face significant transportation funding challenges. We are 
geographically large. We often include vast tracts of Federal 
land and cannot be taxed or developed. We have extensive 
highway networks and have low population densities. This means 
that we have very few people to support each lane mile of 
Federal highway. Yet rural States contribute to this effort 
significantly. Nationally, per capita contribution to the 
highway account of the Highway Trust Fund is approximately 
$111. Per capita contribution to the highway account 
attributable to Wyoming is three times as much, at 
approximately $319.
    So any surface transportation initiative Congress develops 
should be crafted in a way that takes into account funding 
challenges facing rural States.
    In conclusion, Mr. Chairman, those are some of our key 
points, and thanks again for the opportunity to be here today.
    [The prepared statement of Mr. Panos follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
  
  
    Senator Barrasso. Thanks so much, Mr. Panos, for joining 
us.
    Mr. McNulty, welcome, and please begin.

 STATEMENT OF MICHAEL MCNULTY, GENERAL MANAGER, PUTNAM PUBLIC 
                SERVICE DISTRICT, WEST VIRGINIA

    Mr. McNulty. Thank you.
    Good morning, Chairman Barrasso and members of the 
Committee. My name is Mike McNulty, and I am the General 
Manager of the Putnam Public Service District, a State-
chartered drinking water and wastewater utility located just 
outside of Charleston, West Virginia.
    On behalf of West Virginia and National Rural Water 
Associations, we are grateful that you have included a voice 
for rural America at this hearing.
    Before I begin my remarks I would like to say thank you to 
our State's junior Senator, Shelley Moore Capito, for her 
assistance in improving West Virginia's rural water 
infrastructure. In my county, we were able to construct a new 
$16 million wastewater utility expansion that allowed us to 
extend service to 400 homes and businesses. This is a very 
important project for Putnam County, and your assistance, 
Senator Capito, was essential. Thank you.
    When thinking about national water infrastructure 
proposals, please remember that almost all of our country's 
community water utilities--both drinking water and sewer--are 
small. Small and rural communities have more difficulty 
affording public water service due to the lack of population 
density and economies of scale.
    In many States the great majority of community water 
systems serve fewer than 10,000 people. For example, in West 
Virginia, it is 444 of the 468 community water systems; in 
Wyoming it is 300 of the 319 systems; and in Delaware it is 196 
of the 213 community water systems.
    While we have fewer resources, we are regulated in the 
exact same manner as a large community.
    In 2017 there are rural communities in America that still 
do not have access to safe drinking water or sanitation due to 
the lack of population density or funding, some in my county. 
If rural and small town America is not specifically targeted in 
legislation to fund new water infrastructure initiatives, the 
funding will bypass rural America and be absorbed by large 
metropolitan systems.
    Small community water infrastructure projects are more 
difficult to fund because they are smaller in scale. Numerous 
complicated funding applications have to be completed and 
approved compared to one large project. This is compounded by 
the reality that some small communities lack the administrative 
expertise to complete the necessary application process and 
perhaps lack the political appeal of some large cities.
    Second, the lack of customer density in rural America 
compounded with lower median household incomes means water 
infrastructure is often a much greater cost per household. This 
means that a water infrastructure project poses a greater 
financial risk compared to a metropolitan project, and even 
more importantly requires some portion of grant funding--not 
just loan dollars--to make the project feasible.
    In the last 10 years my district has borrowed over $50 
million from the Federal Government for projects that were 
essential to our sustainability and expansion. We could not 
have secured this funding from the commercial markets and kept 
the rates affordable for our customers.
    My water utility provides a good example of what water 
infrastructure development means to rural America. Since its 
early development in the 1960s, our water utility 
infrastructure has expanded rapidly, regionalizing or 
interconnecting with other smaller communities to provide and 
extend water and sewer service and become the engine for 
economic development in our county.
    One of our utility partners, the town of Buffalo, was able 
to finance the sewer expansion that was needed to serve a new 
Toyota plant with funding from the Clean Water State Revolving 
Fund and our State's Infrastructure and Jobs Development 
Council. Without the expansion of our infrastructure, we would 
not have been able to service the Toyota manufacturing plant.
    In southern West Virginia, much of our water infrastructure 
was built over 100 years ago by coal companies and is now 
failing and deteriorating. We have areas in my county with 
failing septic systems that need to be serviced by extending 
sewer lines. We still have pockets of people with no drinking 
water at all, and they rely on hauling water to their home's 
cisterns.
    Rural communities are in need of economic stimulus. For 
example, in West Virginia and Wyoming, the recent declines in 
the energy sector have resulted in massive losses of jobs, 
State revenue, and the corresponding decrease in State 
infrastructure funding. A new infrastructure initiative 
targeted toward rural communities would be a welcome economic 
stimulus in rural America.
    In closing, Mr. Chairman, every rural and small community 
in the country thanks you and this Committee for the numerous 
opportunities this Committee has provided rural America.
    [The prepared statement of Mr. McNulty follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    
    Senator Barrasso. Thank you, Mr. McNulty. Thanks for 
joining us. Thanks for your testimony.
    Ms. Bobbitt.

         STATEMENT OF CINDY R. BOBBITT, COMMISSIONER, 
                     GRANT COUNTY, OKLAHOMA

    Ms. Bobbitt. Thank you, Senator Inhofe, for the very warm 
welcome.
    Chairman Barrasso, Ranking Member Carper, and distinguished 
members of the Committee, thank you for holding today's 
Committee hearing on modernizing our Nation's infrastructure, 
inviting me to testify on behalf of the National Association of 
Counties.
    Infrastructure is important to our Nation's 3,069 counties 
because we build and maintain 45 percent of the public roads, 
40 percent of the bridges, and a third of the Nation's transit 
and airports.
    My name is Cindy Bobbitt, and I serve as Chair of the Grant 
County, Oklahoma, Board of Commissioners.
    Grant County is rural and serves a population of 
approximately 4,500, and our local economy is largely based on 
agriculture and natural resources. We are responsible for 92 
percent of over 1,900 public road miles in the county. We also 
have the most bridges or bridge-like structures, over 3,500. 
Think about that. That is almost one bridge for every resident.
    While this infrastructure was ideal for transporting 
livestock and crops 70 years ago, it is inadequate to support 
today's heavier trucks, increased traffic, and higher operating 
speeds. And Grant County is not alone. Roughly two-thirds of 
the Nation's counties are considered rural and face similar 
infrastructure challenges.
    Today I will highlight some of these challenges and provide 
recommendations for ways Congress can help us tackle these 
issues.
    First, rural counties are facing numerous challenges that 
strain our local funding options. Forty-two States limit the 
ability for counties to raise or change property taxes, and 
only 12 States authorize us to collect our own local gas taxes. 
We often have to choose between investing in infrastructure or 
in funding our emergency services, courthouses, and health 
departments, just to name a few.
    Second, rural counties are experiencing increasing demands 
on our transportation infrastructure, which can no longer 
accommodate our agriculture and our energy needs. While local 
governments can do all we can--and we are trying to--according 
to the Federal Highway Administration 40 percent of county 
roads are inadequate for current needs, and nearly half of our 
rural bridges are structurally deficient.
    Third, counties are facing high costs of infrastructure 
projects. Based on the American Road and Transportation 
Builders Association, the cost of construction materials and 
labor for highway and bridge projects increased 44 percent 
between 2000 and 2013. Just a few years ago, in Grant County, 
we could budget for a road reconstruction project at less than 
half a million dollars. Today that same project would cost 
about $1 million per mile.
    With these challenges in mind, we have some recommendations 
to strengthen our Nation's infrastructure.
    First, Congress should make more Federal highway dollars 
available for locally owned infrastructure. County roads, 
bridges, and highways serve as a lifeline for our citizens and 
are critical to the movement of freight and other goods and 
services to market. While more financing options are available 
in urban areas, rural areas do not often attract that same 
interest from the private sector. Now more than ever we need a 
strong Federal-State-local partnership to remain competitive.
    Second, increased Federal funding to bridges, particularly 
off-system bridges, is vital. We must build for the future, not 
the present. Twenty years ago we were building our bridges 18 
to 20 feet wide. Today we are building our bridges 24 to 26 
feet wide. But that is not going to be wide enough to 
accommodate our larger and heavier equipment. According to 
USDOT, to eliminate the Nation's bridge deficient backlog by 
2028, we would need to invest $20 billion annually, well above 
the $12.8 billion invested today.
    Third, an increased focus on safety and high risk rural 
roads will help our communities and help reduce the number of 
fatalities we see each year.
    And finally, we urge Congress to increase the role of 
counties in statewide planning and project selection processes. 
We recognize that there are more infrastructure needs than 
there are funds available. However, counties have the ability 
to provide input on potential projects and can help maximize 
the effectiveness of Federal infrastructure dollars.
    In closing, as Congress considers ways to modernize our 
Nation's infrastructures counties stand ready to work with our 
Federal partners to achieve our shared goals of strengthening 
transportation networks, improving public safety, and advancing 
our economic competitiveness.
    Thank you, Mr. Chairman and members of the Committee, for 
the opportunity to testify today.
    [The prepared statement of Ms. Bobbitt follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
    Senator Barrasso. Thank you, Ms. Bobbitt. Thank you for 
your testimony.
    Welcome, Mr. Pratt. We look forward to hearing from you.

    STATEMENT OF ANTHONY P. PRATT, ADMINISTRATOR, DELAWARE 
  DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL CONTROL; 
  PRESIDENT, AMERICAN SHORE AND BEACH PRESERVATION ASSOCIATION

    Mr. Pratt. Thank you. I appreciate the time to address the 
Committee today, and I want to thank Ranking Member Carper for 
recognizing something a little bit out of the box. We are not 
talking about roads in this testimony, we are talking about 
green infrastructure, particularly coastal infrastructure.
    I am Tony Pratt. I am the Administrator of Shoreline and 
Waterway Management for the State of Delaware, and also the 
President of ASBPA, which is a national nonprofit organization 
advocating for beaches through science and good public policy.
    Infrastructure--obviously, from our panel members--is 
something which we talk about in terms of roads and bridges and 
man-built infrastructure, but the green infrastructure that I 
am talking about--particularly beaches, dunes, and wetlands--
are incredibly important in a number of factors or a number of 
facets: the safety that they provide during storms, the 
recreational opportunities, and the great number of jobs that 
come with those components.
    I want to talk a little bit about the kind of jobs, first 
of all, that come from beaches. Of course, construction of 
beach nourishment projects is something that provides 
opportunity for engineers and planners and economists to do a 
lot of planning work. It is an opportunity for dredge companies 
with a tremendous amount of employment to come and do work. We 
think about beaches, and Delaware is a good example; Rehoboth 
Beach, that many of you may have attended and had some good 
times in Rehoboth Beach. We think about the primary jobs that 
come from beaches: restaurant help, cooks, chefs, wait staff. 
We think about hotels and motels and the employment there. We 
talk about people who are lifeguards and retail sales and real 
estate sales.
    But there is another facet of jobs that we don't talk about 
very much, and that is plumbers, electricians, roofers, 
builders, any number of trade jobs; hotel and motel management 
folks up and down the seaboard; but also these construction 
jobs and travel corridor jobs that we have not considered much 
of, which is if you drive from Washington to Rehoboth Beach or 
Ocean City, Maryland, you are going to go past a number of 
stores that are there primarily because of the recreational 
attraction of the coastline.
    Dr. James Houston, who is from ERDC, the research 
laboratory from Vicksburg, Mississippi, indicated in work that 
he has done in the past that beaches get more recreational use 
in the U.S. than all of our national parks combined, which is a 
pretty stunning thought. This adds up to a major economic 
impact. Beaches help generate $2.25 billion annually to the 
national economy.
    In 2012, according to Dr. Houston, for every $1 invested by 
the Federal Government, the Federal Government returned $570 in 
annual tax revenues from beach tourism. One dollar spent and 
$570 returned. It is a very good investment, we believe.
    Estuarine research over by the eastern seaboard in the Gulf 
has indicated that for every $1 million invested, 
approximately, in estuary recovery, that there are 30 jobs 
created.
    Coastal infrastructure is a wise investment. You either pay 
now, or you pay later. We have found in numerous storms, 
Katrina and Ike and Sandy, many storms that have hit the Gulf 
and Atlantic Coast, and now the West Coast is suffering some 
severe winter weather, that the impacts are tremendous.
    Sixty-five billion dollars was allocated for the States 
primarily from Massachusetts to North Carolina and concentrated 
on about Maryland to Massachusetts. Sixty-five billion dollars 
was allocated to restore from that and recover from that. If we 
took a third of that, about $20 billion, and had invested in 
that over the Nation over the last 20 years, it would have been 
about a $1 billion investment. We have found that in Sandy, 
where there were good beaches and dunes in place, $1.9 billion 
was saved because of that investment.
    We believe that if we had done that $20 billion over 20 
years for the entire Nation, about $1 billion a year, that 
number would have been far higher and that $65 billion need 
would have been much greater reduced.
    Beaches and dunes provide many benefits. We talk a little 
bit about jobs; we talk about the protection they afford. But 
they are also the dividing line between open water, gulf coast, 
ocean coast, and estuarine waters, which are highly productive, 
producing jobs for fishermen, for recreational tourism.
    In Delaware we had an example of the Department of Interior 
investing $38 million in recovery of a national wildlife 
refuge. Had we spent about $2 million to $3 million in 
restoring the beach prior to the damage being occurred and all 
the damage of the wetlands happening and loss of forest, we 
would have probably avoided that $38 million investment. It is 
wise for a lot of factors, for jobs and for protection and for 
estuarine waters.
    In my summary statement, we believe, from my organization 
and from my State of Delaware, that a higher investment in our 
coastal infrastructure that protects man-built infrastructure, 
that provides jobs, that provides protection for our Nation's 
productive habitats, is a wise investment. We are advocating 
for something in the order of $5 billion over the next 10 
years. I know that there is probably justification for a higher 
number than that, but I think that is a modest request when the 
current funding is about $75 million to $100 million a year. We 
think that that number should be much higher.
    And I thank you for your time today.
    [The prepared statement of Mr. Pratt follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Senator Barrasso. Thank you very much for your testimony, 
Mr. Pratt. We appreciate hearing from you.
    Now I would like to go to Mr. Bhatt.
    Thank you very much for being with us. Please begin.

  STATEMENT OF SHAILEN P. BHATT, EXECUTIVE DIRECTOR, COLORADO 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Bhatt. Thank you, sir.
    I want to thank you, Chairman Barrasso, and Ranking Member 
Carper and members of the Committee. I also want to recognize 
another neighbor in Senator Inhofe and thank him for his 
efforts to pass the reauthorization for transportation.
    In the interest of time, I will summarize my testimony. In 
addition to serving as the Secretary of Transportation in 
Delaware and as the Executive Director of Colorado Department 
of Transportation, I also served as the Deputy Executive 
Director for the Kentucky Transportation Cabinet and at the 
Federal Highway Administration, so I am keenly aware of the 
balance of urban and rural needs in the country and how it is 
not a one size fits all solution.
    Colorado is a large, diverse State with rapidly growing 
metropolitan areas experiencing increasingly constrained 
mobility and vast rural areas that rely on an effective and 
well-maintained transportation system to move agricultural and 
energy products to market.
    I am going to tell a quick story that I used a couple years 
ago in testimony before the Senate Finance Committee prior to 
passage of the FAST Act. And I tell this story because I think 
it is indicative of the challenges that we face.
    When I first began as the Executive Director of the 
Colorado DOT, I took an 1,100-mile trip around Colorado. The 
first traffic jam I got into was in a pretty rural part of the 
State, up near Fort Collins, on I-25. I-25 is the major north-
south artery not just for passenger traffic, but also an 
important freight corridor that connects Canada and Mexico. 
Freight is an incredibly important part of our job in the 
transportation world.
    When we got outside of Denver, where I anticipated the 
traffic, we headed north. We got to a four-lane section, two 
lanes in each direction, which is similar to a lot of the 
interstate that is present in many rural areas. It was a 
Thursday morning, well after rush hour, so I assumed that there 
was an incident ahead because the traffic reminded me of the 
Beltway during rush hour. My regional engineer informed me that 
there was no incident, that that was just how traffic flowed on 
I-25 on a regular basis.
    So when I asked what the plan was to add capacity, I was 
told that the plans on the books were for that section of I-25, 
a 45-mile section, to be widened in 2070 based on current 
funding level. So a 16-year-old who got their driver's license 
could have anticipated that road being widened when they turned 
70 years old, and that is just unacceptable. And that is not an 
urban problem; that is not a rural problem. That is a problem 
for the State of Colorado and for commerce.
    Like the rest of the Nation, funding for transportation in 
Colorado is at a crossroads. Our primary sources of funding, 
both the State and the Federal gas tax, have not increased in 
nearly 25 years.
    Now, in order to advance these important improvements to 
the I-25 corridor, we have cobbled together State, local, and 
private funds with toll-back bonds and a $15 million TIGER 
grant to construct just a 14-mile first phase from Loveland to 
Fort Collins. But there remains over $1 billion, just in this 
corridor alone, in unfunded needs.
    Now, we have an annual budget of $1.4 billion, the vast 
majority of which goes to asset management, which we don't even 
fund fully. We are short $1 billion a year to meet the 
currently identified transportation needs throughout the State. 
In fact, in the next decade we have $10 billion in unmet 
funding needs for highway and transit projects across Colorado.
    We are working to address the severely deficient section of 
I-25 south of Denver, between Colorado Springs and Denver. 
These are the two largest cities in the State. The interstate 
is still in its original configuration. We are working toward 
having that project ready to go in 18 months, but we lack $400 
million to $500 million to make the initial improvements.
    In another example, we are poised to move forward in 2018 
with improvements to central 70 corridor in Denver, but we are 
short about another billion dollars on that project. Every year 
we delay that project goes up.
    We take advantage of financing tools such as TIFIA and 
public-private partnerships and toll-back bonds, but financing 
alone does not solve our funding challenge in transportation. 
We have been challenged to do more with less. We are trying to 
do that. We have implemented cash management to flush out any 
cash reserves. Where it makes sense, we are using tolling and 
public-private partnerships. And finally, we are embracing 
technology. I believe that connected vehicles, autonomous 
vehicles, vehicle-to-vehicle infrastructure, and vehicle-to-
vehicle technologies will help us operate the system much more 
efficiently, but that does not change the need that we have a 
significant need for investment in the system.
    To conclude, I would respectfully thank this Committee for 
their attention and care and say that the timing is right for 
additional revenues to States through the existing funding 
formulas for us to invest in our infrastructure. The economy 
continues to recover, and significant new investment will be 
necessary to sustain and expand on that economic growth. We 
stand ready to partner with the Federal Government to make 
significant investments in our transportation system for the 
benefit of all Americans.
    I am happy to answer any of your questions. Thank you very 
much.
    [The prepared statement of Mr. Bhatt follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Barrasso. Well, thank you very much for your 
testimony, Mr. Bhatt. We appreciate you being here.
    We are going to turn to questions, and I will start with 
Director Panos.
    In your testimony, you discuss Build America Bonds program 
that was part of the 2009 stimulus package. You note that it 
doesn't work for rural States who want to build roads and 
bridges. I looked at that list of projects funded by Build 
America Bonds on the Treasury Department Web site. When you 
look at it, our State of Wyoming had six projects; the State of 
Delaware had six projects; the State of Vermont, Senator 
Sanders, a member of this Committee, had four projects; West 
Virginia had two projects; Rhode Island had only one project. 
In contrast, New York had 59; California, 158; Illinois, 245.
    Could you explain to the Committee why these sorts of bond 
programs don't really work for some of the smaller States?
    Mr. Panos. It is a great question, Mr. Chairman. You know, 
my response really is limited to surface transportation, and 
the explanation really relies on the characteristics, the 
fundamental characteristics of rural States.
    As I said in my written testimony, we have low population 
densities, and we have very extensive road networks, so paying 
back the principal and interest involves a high cost per 
capita, and it discourages borrowing for transportation in 
rural States. In fact, after talking with a State treasurer 
this last week, Wyoming has never borrowed for a road project, 
a surface transportation project in the State of Wyoming.
    So that is how I would at least briefly respond to the 
question.
    Senator Barrasso. OK. And never borrowed in 120-some years. 
So never borrowed.
    Mr. Panos. That is correct.
    Senator Barrasso. Am I correct in assuming that all things 
being equal, that if additional resources are provided, that 
you would rather have these resources go to your departments, 
because you provided testimony for a number of different 
States, for five different States, it would go to your 
departments so that the States could decide where to apply the 
funds rather than to receive specific directives from 
Washington on how the money is spent?
    Mr. Panos. Absolutely, Mr. Chairman.
    Senator Barrasso. And as I say, you are here representing 
the interests of the transportation departments in five 
different States. What would you say is the principal concern 
of the rural States in developing the surface transportation 
programs within the framework as prescribed by the FAST Act?
    Mr. Panos. So, first it is important to note that the FAST 
Act struck a very good balance with respect to rural and urban 
interests, and I want to thank Congress for that. They did a 
great job of moving the FAST Act through and balancing urban 
and rural interests.
    There is also a concern, and I think it is not just in 
rural States, but I think it is in a number of different 
States, about the stop-and-go of the Federal actions, and the 
FAST Act, as you know, runs through 2020, which provides, and 
commendably provides, more stability than other recent 
authorizations. Yet as to the appropriations, I think we are 
operating under a continuing resolution, which restricts our 
ability, actually, to plan for future projects. In our State, 
we are working with our State legislature now and needed to ask 
for twice the amount of borrowing authority that we would have 
otherwise to be able to cover some of those costs, cash-flow 
needs for the projects as it relates to the continuing 
resolution.
    So that is our State, but other States as well have 
advanced construction and borrowing against State funds, if 
available, to keep highway projects on schedule until the 
Congress completes its appropriation process. So, that is one 
thing, the continuing resolutions.
    The second really is flexibility, program flexibility; and 
delivering programs and projects is fairly complex, and 
planning and programming requirements sort of keep multiplying, 
and the performance management rules recently put forward also 
add to that.
    So, developing some ideas, like we are doing here today, in 
areas to improve program flexibility and improve project 
delivery I think will help a great deal. So those were just a 
couple of observations, the continuing resolution, stop-and-go, 
and then program delivery improvements which would help our 
State and others.
    Senator Barrasso. Thank you.
    Mr. McNulty, if I just could visit with you a little bit 
about the testimony where you mentioned that almost all the 
water systems in West Virginia, as well as Wyoming, serve 
populations I think you said fewer than 10,000 people. Like 
larger water systems these small systems still need to comply 
with complex Federal regulations, with less administrative and 
technical expertise than the larger counterparts do.
    So could you talk a little bit about what steps--because we 
all want to make sure we don't want to sacrifice safety--what 
steps Congress could take to simplify compliance?
    Mr. McNulty. I believe Congress could allocate more funds 
for technical assistance in training to help the smaller 
communities and the operators and administrators to ensure that 
they are able to be up on all the regulations that come out of 
the EPA and so forth, and I believe that would really be the 
biggest benefit, to have more dollars to go to technical 
assistance.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks so much.
    Mr. Panos, when was the last time Wyoming raised their gas 
tax?
    Mr. Panos. Not very long ago.
    Senator Carper. In 2013, right? Three or 4 years ago?
    Mr. Panos. Yes.
    Senator Carper. They raised it by what, 10 cents?
    Mr. Panos. We did.
    Senator Carper. Did everybody who voted for that get thrown 
out of office?
    Mr. Panos. No.
    Senator Carper. Why not?
    Mr. Panos. The State and the citizens there saw a need for 
it.
    Senator Carper. Is there a lesson there for us in the 
Congress?
    Mr. Panos. I am sorry?
    Senator Carper. Is there a lesson for us in the Congress?
    Mr. Panos. Certainly in our State, in our particular State, 
it was necessary because of the changing economy in our State. 
Our State went through, and continues to go through, an 
economic shift that is not repeated in many States, but my 
friend to the left here, in West Virginia, has had that as well 
with the energy economy and other things. The State legislature 
saw that coming, and they were able to support certain 
transportation projects by moving that forward. It was very 
difficult in the State legislature to move that forward, but 
Wyoming was very aware of its impending future and was 
proactive at being able to support that.
    Senator Carper. We are scheduled to run out of money in the 
Federal Transportation Trust Fund in 2020, and I just remind my 
colleagues it is 3 years from now, but it is just around the 
corner. Thank you.
    West Virginia, Mr. McNulty, former Congressman from New 
York State with whom I served. Actually, it is another Michael 
McNulty, but we are glad you are here. Abraham Lincoln used to 
say the role of government is to do for the people what they 
cannot do for themselves. The role of the government is to do 
for the people what they cannot do for themselves. What is the 
role of the Federal Government with respect to addressing the 
drinking water needs and the wastewater needs of States like my 
native West Virginia?
    Mr. McNulty. Thank you, Senator. The Federal Government, I 
see it as the obligation to ensure that the funds are available 
for any mandate that comes down the pipeline, for additional 
testing and water quality standards. I believe it is certainly 
the Federal Government's obligation to make sure that 
communities receive the funds in order to comply. No unfunded 
mandates.
    Senator Carper. Good.
    Mr. Bhatt, I am going to ask you to answer for the record, 
not here because I don't have enough time. But the request I am 
going to ask you to answer for the record. In fact, I will ask 
all of you to do this. Better results for less money. What are 
some things that we need to do? I think we tried to do that in 
the FAST Act, to provide the opportunity to get better results 
for less money. What are some other things that we can do, 
should do between now and, say, 2020 to enable you and us to 
get better results for less money? So I will ask all of you. 
You don't have to answer that now, but you know that if I had 
the time I would ask you to answer that on the record.
    I would just ask for Tony and for Shailen, it is great to 
see you guys. Thank you so much for your service to our State 
and to, really, the United States. We have a road in Delaware 
that is called State Route 1, and you can pick it up, you come 
to it on I-95. You come between Wilmington and Newark, 
Delaware, the northern part of the State, and you pick up State 
Route 1, which takes you to Dover, Dover Air Force Base, and on 
down to our beaches. We are proud that we have more five-star 
beaches than any State in America. If you stay on State Route 
1, it goes on into Delmarva, to Ocean City, Maryland, and on 
down into Virginia.
    There is a bridge that goes over an inlet. There is an 
inlet that comes, it is called Indian River Inlet, and it is 
just north of Bethany Beach, and it flows east-west with the 
tides. And there is a big bridge built over it, several bridges 
were built there over time, and we had to eventually replace 
the bridge because of scouring that was going on in the inlet. 
When Hurricane Sandy came to town it had a very adverse effect 
on the bridge there, and I just wanted to ask Tony and Shailen, 
just take a minute, talk to us about the intersection of 
shoreline protection, dune protection, and an infrastructure, 
major infrastructure investment of over $100 million. How do 
they intersect there?
    Mr. Bhatt. I will start, since I was responsible for that 
bridge during Hurricane Sandy, and I was actually driving 
toward Route 1, and I got a call from the Governor saying that 
on CNN he had seen that our new $250 million bridge had washed 
away. So instead of turning left, I turned right, got down 
there.
    It turns out that the new bridge had not washed away; the 
old bridge had washed away, which I think was a pretty good 
justification for us for replacing the old bridge. You know, 
those hurricanes, I remember when I first became the secretary 
in Delaware. Three weeks after that Hurricane Irene showed up, 
and everybody told me that hurricanes don't come here; you 
know, they often veer off or they go somewhere else. And in my 
4 years there we had two hurricanes, so something changed 
around that. The infrastructure is so critically important. 
What I was so struck by was once that land link was lost, how 
incredibly impacted those communities were, and people trying 
to get out, get back in, get their kids to school.
    So I would just say that it just draws home the importance 
of investment in infrastructure, and it is so incredibly 
important that we do make intelligent investments.
    Senator Carper. My time has expired. Thank you for that.
    I would just say to my colleagues we spent a fortune on 
that bridge, new bridge, and the next hurricane that comes 
along, it could further undermine that bridge if we don't 
invest in the dune protection and in the beach protection. So 
one hand sort of washes the other. That is an important point I 
wanted to make. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. I have to tell you, Mr. Bhatt, when the 
tornadoes veer off, they come to Oklahoma.
    [Laughter.]
    Senator Inhofe. First of all, I have something to submit 
for the record, Mr. Chairman. This is the largest coalition I 
have seen. This is a letter to President Trump from over 500 
organizations through almost everything in America. So there is 
the level of popularity, and I want to ask that that be made a 
part of the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Inhofe. Ms. Bobbitt, you have had a little bit of 
an advantage because you have had a lot of advice and counsel 
with Gary Ridley. And I am sure, Mr. Bhatt, you and Mr. Panos 
both are friends of Gary Ridley. He has actually served as a 
witness before this Committee more than anyone else in the 
history of this Committee because he knows the subject. We have 
been able to pass a lot of good things, and I think we have 
done some pretty creative things.
    Now, Commissioner Bobbitt, it is unique the challenges that 
you face in a very rural, rural Oklahoma, and you have had to 
be creative from time to time. Could you expand on the funding 
challenges and give an example or two of how you have gotten 
projects over the finish line with the limited funds in your 
county?
    Ms. Bobbitt. Thank you for that question.
    Yes, Grant County is very rural, 4,500 people. While we 
have the most bridges and the fifth highest number of road 
miles in the entire State of Oklahoma. Yet our funding is 63rd 
out of 77 counties. So we definitely have a challenge.
    But one unique thing that we have done in the past--as 
counties, we worked as a partnership with the Oklahoma 
Department of Transportation, Gary Ridley, and we came across--
when they were going to deconstruct the I-40 cross-town bridge 
there were a lot of used beams there. Now, beams that we could 
have our engineers inspect and look at, and we recycled them. 
So we took ownership, counties took ownership of all those 
2,000 beams, and we brought them back to our counties.
    Grant County received over 100 of those beams, more beams 
than any other county. We have more bridges than any other 
county. Successfully, we have already built 10 new bridges, and 
we have more beams to put in place as soon as we get the 
funding. And that talks about how important a partnership is. 
That was a State and local partnership. We also would like to 
have that same partnership with the Federal Government to help 
us bring home projects.
    Senator Inhofe. As you know, the President has talked about 
the public-private partnerships. Is there any comment you can 
make about how you have been successful in doing that in your 
area?
    Ms. Bobbitt. The partnerships, the private partnerships 
will probably work really good for Oklahoma and Tulsa County, 
but the partnerships might not work so well for our very rural 
county. But what we can do is we have municipal bonds that are 
tax exempt that we really need to protect because we do use 
those types of financing to help us move our projects forward.
    Senator Inhofe. Well, during the FAST Act, and I have had 
the advantage of dealing with these issues for 22 years in the 
Senate and then 8 years before that in the House on the 
Committee, so I have been here for all of those 
reauthorizations that we have had. One of the problems we had, 
and people forget about this, up until the middle 1990s the 
biggest problem we had with the Highway Trust Fund is we had 
too much surplus. And we know what happened to that, and we 
know now that we are in a crisis.
    But one of the things we have done has been more--and you 
addressed this, Mr. Bhatt--a little more creative on things 
that we could do in the bill in giving more power to the States 
and giving them options, for example, on the enhancement 
percentages, say from State to State. In California they may 
have different ideas than we have in Oklahoma and how to use 
those, so we gave different States that option.
    What do you think about giving States more of those types 
of options and how you can stretch your dollars a little bit 
more?
    Mr. Panos.
    Mr. Panos. Senator, I think anything that we can do to 
reflect the conditions in rural States through those kinds of 
adjustments are very, very helpful to rural States.
    Senator Inhofe. Mr. Pratt, do you agree with that?
    [No audible response.]
    Senator Inhofe. This is a trend that we have started, and 
we want to continue with this, giving more of the options to 
the States. Do you all pretty much agree that that is moving in 
the right direction?
    Mr. Bhatt. Thank you, Senator. Yes, I would say that one of 
the best parts of the FAST Act, in addition to the certainty, 
was the flexibility, and I think it is incumbent upon States to 
work with locals and others to make really good decisions. We 
pass on and we interact very closely with our local partners to 
make sure that it is a Colorado or a Delaware or an Oklahoma 
solution.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    This question is for Mr. Pratt. The Flint water crisis 
tragically taught our country a new lesson of the dangers of 
old infrastructure. In allowing our water infrastructure to 
crumble, millions of families find themselves in real danger of 
drinking lead-contaminated water. Not every community is 
satisfied with this dangerous status quo.
    In Madison, Wisconsin, local officials demonstrated 
leadership in throwing away Band-Aid fixes. They actually, at 
the local level, committed to a decade-long infrastructure 
project that culminated in fully replacing every service line, 
every lead service line in Madison.
    Now, when my constituents learn about the infrastructure 
initiative completed in Wisconsin, they don't understand why 
the children of Wisconsin deserve greater protection than the 
children of Illinois or of Delaware. There is no good answer, 
and I think that is why this Congress needs to act swiftly and 
decisively to provide States and local governments with direct 
funding support, far greater than our efforts to date, to 
jumpstart vital water infrastructure projects.
    As a State official, Mr. Pratt, who must struggle daily in 
balancing the needs to address fiscal challenges and meet the 
needs of your residents, would you concur that States such as 
Delaware both need and would put to good use direct Federal 
investments in critical infrastructure such as safe drinking 
water?
    Mr. Pratt. I will answer that from the perspective of 
somebody who handles beach management and wetlands management, 
not water supply management. But certainly the overarching 
theme is that we have not invested as we should have as a 
Nation in that infrastructure. I would welcome any other 
comments from the panel, but it is not my world of expertise on 
water supply, but certainly the stories we hear from around the 
Nation are compelling stories about how I think that the 
overarching issue is that we have an appetite for construction 
of new and not much of an appetite as a Nation for maintenance 
of what we have built in the past, or improvement of what we 
have built in the past, and that is a philosophical point I 
think that needs to be changed. But I am not an expert on water 
supply issues, but thank you for the question anyway.
    Senator Duckworth. Well, not necessarily just water supply. 
You know, the people of Illinois sent me to the Senate with a 
clear message. Americans are ready, willing, and eager to start 
rebuilding our Nation at all levels, all infrastructure. When I 
travel across Illinois, from rural communities to suburban 
neighborhoods to urban centers, there is a unifying call on 
Congress: please work to modernize our Nation's infrastructure. 
Make it a priority. Whether it is roads, rail.
    Simply put, Illinoisans want Congress to place a big bet on 
America, and they want their tax dollars invested in American 
workers and in American companies to rebuild and modernize 
American infrastructure, and we must go beyond road, rail, and 
bridges. We should be wise in making sure our investments 
prepare us to succeed in the 21st century. This includes 
investments in broadband to empower every family to access high 
speed Internet. In fact, you know, I have parts of Illinois 
where our kids can't do their homework because they don't have 
access to broadband. We can't track businesses to rural 
communities because there is no broadband. So it is not just 
about the water or the bridge or the road; it is all of it.
    And I do think that there is a role here to play for the 
Federal Government to come in and provide those resources in 
partnership with local and States. I just don't want us to fall 
into the trap that we think, oh, Madison replaced all of their 
own lead water supply, so that is what every State should do. 
To each their own. And anyone on the witness panel can 
certainly talk to this, but how important is the role of 
Federal Government coming in with Federal dollars to help you 
be able to do this?
    Mr. Pratt. I will answer that from my perspective, too. In 
the world I work in, it is very imperative that the Federal 
Government take an involved position. Home rule indicates that 
local communities will develop their own land use plan and will 
develop as they see is best for their community. That is across 
the board of residential and industrial and recreational areas 
and commercial areas.
    And when that fabric of community is built, if there is 
anything that is imperiled, it is usually the Federal 
Government that has to come and bail out the aftermath. If 
there is a complete breakdown of waters of life, if there is a 
tornado, if there is a forest fire, if there is an earthquake, 
or if there is a coastal storm, it is the Federal Government 
that responds and has to respond after the suffering has 
occurred, whether it is pollution of water and no water supply 
for a community or it is a community that has no roads left 
after a storm or a tornado has wiped out a community in 
Oklahoma. It is the Federal Government that will have to come 
out and put the dollars up there.
    Investment ahead of time, before the disaster, before the 
crisis has occurred, is an important turning point we need to 
make, and I believe absolutely the Federal Government has a 
tremendous amount to save by that investment.
    Senator Duckworth. I thank you for those comments.
    Anybody else from the panel?
    On the end.
    Mr. Bhatt. I would just say that 70 percent of our 
construction dollars for transportation in Colorado comes from 
the Federal Government, so it is incredibly important that 
there is a strong Federal role in transportation investment. 
And on the broadband comment, Governor Hickenlooper has 
directed us to work with the economic development folks to 
provide broadband. I believe that broadband are the new 
highways of the 21st century, and it is incredibly important 
for us in Colorado as well.
    Senator Duckworth. I am out of time. Mr. Panos, you will 
have to respond on the record. Thank you.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    And thank all of you.
    A couple of things. I would like to start with Mr. McNulty. 
First of all, I would like, for the record, to thank you, as a 
resident of Charleston, West Virginia, who was affected by the 
chemical spill into our primary water source. Putnam County 
Water District really came to the rescue for a lot of folks who 
were without water. So I don't know if you want to just take a 
couple seconds and say some of the things that you did as a 
regional resource to try to help people who were without water 
in a crisis.
    Mr. McNulty. Thank you, Senator. Our water utility, we 
immediately were in contact with the Governor's office, 
Governor Tomblin, and we worked with his staff to make sure 
that they could start bringing in tankers. We do have a fuel 
station located at our water treatment facility. And we also 
helped local folks that came in with their own containers and 
filled those containers and so forth. So we did play an active 
role, and so did many other rural utilities surrounding Kanawha 
County and so forth. A lot of folks helped out.
    Senator Capito. Well, your help was very much appreciated 
and everybody's help. I think West Virginia and rural 
communities around the country are known for neighbors helping 
neighbors, and certainly in that instance you all definitely 
helped us.
    I would like to kind of pivot off of something that Mr. 
Pratt mentioned. In your experience at Putnam, in Putnam 
County, are you looking more at extending new or replacing old? 
Where is the push-pull there in terms of water infrastructure?
    Mr. McNulty. Both, actually. We are expanding. As I 
mentioned earlier in my testimony, we just finished up a large 
sewer expansion to existing homes and businesses. But we are 
also very well aware of the maintenance that has to be done and 
upkeep of our system. So we have expanded our water treatment 
plant, as you know and have been there to see it. So we are 
still in that balance of doing both.
    Senator Capito. Is it easier to get funding for one or the 
other?
    Mr. McNulty. I haven't had a difficult time obtaining 
funding for either one.
    Senator Capito. OK. OK.
    The other thing, in your testimony you mentioned the WIFIA. 
We passed the bill, the WRDA bill, last year as we were 
leaving, and in that is WIFIA, which is a water infrastructure 
financing method similar to TIFIA for the waterways and for 
water projects. Now, in my view, this holds great promise, I 
feel as though, for another funding mechanism for rural America 
and rural American water systems. You have expressed some 
skepticism for that. Would you like to speak about that?
    Mr. McNulty. Yes, ma'am. The WIFIA will not really benefit 
the smaller rural communities because you have to have larger 
projects to qualify. And of course, our greatest concern is 
that we do not want to see any of the funds from the Drinking 
Water SRF or the Clean Water SRF go to fund WIFIA; we want to 
make sure those funds stay intact.
    Senator Capito. I think the intention of WIFIA is to use 
those as a jumping point; not intending to decrease their value 
or decrease their amounts but to use them as a leverage point. 
I am wondering if it would be possible for local, smaller 
projects to band together for a WIFIA project. I don't know if 
that is within the boundaries of the law. Do you know that?
    Mr. McNulty. I really don't know. We would have to do some 
research and get back to you, Senator.
    Senator Capito. OK.
    I would like to ask you, Mr. Panos, on the transportation 
issue. You mentioned in your statement that the PPPs don't work 
for rural areas. We have had a couple in actually Mike's 
backyard, Route 35, that has been a PPP project that I honestly 
don't think, we are on the verge of getting it completed now, 
could have gone on if we hadn't had the ability for our State 
DOT to use the PPP projects. Why is that not working in rural 
America; is it the scale or what?
    Mr. Panos. Thank you for the question. Generally, in the 
rural States we just don't have the revenue generation or the 
volumes that would support a public-private partnership 
concept. Certainly other systems, as well, other financing 
systems we could look at, but direct funding works best for us 
through the formulaic system; it has been worked out over a 
number of years, and at least for rural States it works very, 
very well for us. Again, it is based on the volumes that we 
have and then the expansive nature of our surface 
transportation system.
    Senator Capito. Can your State sell bonds to begin paying 
on a payback so you can get the project done earlier? They are 
called GARVEE bonds we have in West Virginia, but don't ask me 
what GARVEE is the acronym for, I couldn't tell you.
    Mr. Panos. Senator, the State of Wyoming has used bonds on 
a very limited basis. Again, our primary source of 
transportation funding is from the Federal Government through 
the formulaic system. The comment earlier I think was made 
about the 10 cent fuel tax that was passed in Wyoming some 4 to 
5 years ago. That only pays about less than 20 percent of the 
cost of surface transportation; the vast majority of capital 
highway funding in Wyoming comes from the Federal Government 
through the formulaic system.
    Senator Capito. Thank you very much.
    Mr. Panos. Thank you.
    Senator Barrasso. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Like many of my colleagues I believe in the importance of 
funding our surface transportation infrastructure, and reliable 
infrastructure does represent a critical investment in 
advancing our safety and commerce. The Highway Trust Fund has 
served to equitably distribute funds to all States, rural and 
urban, and is the linchpin of our transportation system.
    As many here are aware, the Congressional Budget Office 
projects that the Highway Trust Fund will face a deficit of 
well over $100 billion in the 5 years following the FAST Act 
expiration. So that is why I have introduced the Build USA 
Infrastructure Act, which would address the near-term solvency 
of the Highway Trust Fund without raising taxes on hardworking 
Americans.
    I would like to ask our State DOT directors, Mr. Panos and 
Mr. Bhatt, how important is certainty in the formula funding to 
your States' transportation systems? And when it comes to 
maintaining our roads and bridges, is there really any 
substitute for this critical apportion funding?
    Mr. Bhatt, would you like to start, please?
    Mr. Bhatt. Thank you so much, Senator. Funding certainty is 
everything. You know, I do conservative talk radio once a 
month; I just go on the show. And it is not always a love fest, 
but I think it is important for government to go out and talk 
to all of our constituents. And somebody said why did you stop 
this project at point X? Any fool could see that all you had to 
do was continue it on down another 20 miles. But unfortunately 
we have to have logical termini that are based on the 
transportation need and the financial need.
    So one of the best parts about the FAST Act was getting us 
out of that cycle of continuing resolutions around funding. If 
we have certainty around funding, then we can make better 
plans, and it costs States and all taxpayers less money when we 
have certainty.
    Senator Fischer. And Mr. Panos.
    Mr. Panos. For Wyoming and surface transportation, I think 
that certainly the idea of certainty in funding, Federal 
funding is very, very important to us. We are very conservative 
in terms of how we look at financing our system. Our system is 
not being expanded as we speak; it is being preserved. So, we 
are just getting in enough money to preserve the system that we 
have now, our 2,000 bridges and 7,000 miles of roads. So, for 
us, we take a very conservative role.
    So the proposal that you are referring to I think 
identifies a couple of things. One, it identifies that the 
Highway Trust Fund is not going to be a consistent source of 
funding after 2020, and that is critically important to us 
because we are not expanding, we are just preserving what we 
have there; the investment has already been made by the Federal 
Government. And the second is that it really looks at the 
process, the regulatory review of the projects and looks at how 
time consuming that is and the need to improve that. So we 
support addressing both of those things. Those are things that 
I think not only Wyoming, but other rural States would agree 
with. So, it is good that you stepped up and put some of those 
ideas front and center for us to look at. How we go about that, 
obviously, we will work with Congress over the next few months 
to develop, but I think they are solid ideas. But we, like 
Colorado, are looking for consistency.
    Senator Fischer. Thank you for your compliment of the 
proposal. I think it is really important to identify a 
consistent revenue source without raising taxes at the Federal 
level to be able to fund beyond maintenance, because we all 
need to make sure we have that capacity in the future as well.
    And you mentioned a second part of my proposal that really 
addresses the critical delays that projects are faced with when 
they have to wait for that Federal Government approval, and I 
can tell you that my State has spent time and money on those 
burdensome Federal Highway Administration processes that really 
don't change any outcomes moving forward.
    For example, we are looking at upgrading a substandard 
Dodge Street S-Curve project in Omaha, and that has seen costs 
grow by $3 million because of these burdens that are out there.
    Again, this idea that is in the Build USA Infrastructure 
Act is based on a proposal that I was able to get advanced in 
the State of Nebraska that has proved successful, and hopefully 
we will be able to have a conversation on that here.
    But I would ask you both--Mr. Panos, you address part of 
it, but I believe a greater State authority over this approval 
process is going to--because we have shown that it is going to 
move that approval process forward without really taking 
shortcuts. We are still going to meet the requirements that are 
there, but I think it is a better system to put in place and a 
better use of taxpayer dollars.
    Would either of you like to address that, just on the 
delays you have faced with going through the Federal Highway 
Administration?
    Mr. Bhatt. Thank you, Senator. I am quite torn on the 
answer that I give you, and I say this with all respect. I, as 
a director of DOTs, have fought with the Federal Highway 
Administration to try and expedite projects over the years when 
we were ready to go on something, so on the one hand expediting 
projects is very good. We have a big project, a $1.2 billion 
viaduct replacement in Denver right now that is about over a 
decade in the planning process, and some people would say, 
well, that took 13 years to get to construction, how 
ridiculous. There is a school that is right beside that 
project. If my children went to that school, I wouldn't want a 
State DOT to come in and just say, hey, we are moving the road 
right beside you. We are taking 63 homes in the process of 
that, and one of the Federal requirements that we have to 
follow is there are certain rules and regulations; when we take 
property, we have to show a burden and we need the property, 
and we have to follow rules around relocating people.
    So, as the State DOT person, I would love for there to be 
fewer regulations. As someone who is impacted by the project, I 
think that some of those Federal regulations do serve a 
purpose.
    Senator Fischer. And I wouldn't disagree with you on that, 
but I think if we can expedite, that would always be a saving.
    I apologize, I am over my time.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Fischer.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    It isn't very often that we have the opportunity in a 
Committee like this to talk about what we want to see in the 
future. You have heard the President suggest that 
infrastructure is critical. You are hearing members on both 
sides of the aisle saying that the time is now to actually 
start discussing how we do infrastructure development in the 
United States coming up.
    I want to take this at a different level than simply asking 
about rules and regulations and so forth. My friend, the 
Ranking Member here, as a former Governor in his home State 
recognized that they could make good decisions there about what 
their needs were. They see major issues that we don't see in 
South Dakota. They are concerned about rising water levels in 
their neck of the woods.
    In South Dakota we are concerned about things like our 
rural development of the basic infrastructure of simply 
delivering rural water. In fact we have rural water programs in 
South Dakota that the States fully funded their share of it, 
and yet the Federal Government hasn't got enough money in it to 
actually pick up their share, and the cost is going up, and we 
have people that don't have that water available. We have other 
rural water systems in the State that basically they don't have 
enough money to even do some of the maintenance on some areas, 
and they haven't quite filled them out yet.
    Just for a minute, what I would like to do is--as 
individuals that have a clear understanding from the State and 
local level, the opportunities and the capabilities that you 
have--I want to reach out a little bit here. Let's make a 
couple of assumptions that perhaps a lot of people in this 
country would say will never come true. Some people would say 
we are talking about la-la land or fairy land, but let's 
assume, No. 1, that Republicans and Democrats actually agreed 
on a need for an infrastructure bill.
    No. 2, let's agree, just take the assumption, and keep the 
snickers down, OK, but let's agree that Congress actually 
agreed on a funding bill and that Congress actually agreed 
differently than in the past, they actually agreed on how they 
were going to pay for the funding bill. And then let's agree 
that we actually agreed on how we would distribute a 
significant part of those funds back to States and local units 
of government.
    And let's say that we actually had the foresight to talk 
not just about roads and bridges, but about water development 
and about broadband, which is clearly important, and perhaps 
give some opportunity for States and local units of government 
to have some flexibility in what they saw as needed economic 
development. And let's just say they actually had the foresight 
to make a deal with the States where the States actually had 
some skin in the game and had a match, similar to what we have 
in the Highway Fund.
    Now, I know I am making some major stretches here, but 
let's say that we also said that we expected that a number of 
different projects could be made available, whether you talk 
about ports of entry along the borders, whether you are talking 
about ports along our coasts, airports, road bridges, water 
development, and so forth.
    This is your opportunity to just expand in terms of what 
your capabilities are and what the limitations are that the 
Feds currently put in place, what we do to hamstring you, but 
also the things that you think you are capable of doing. Can I 
just each of you--and I don't care in which order--can I ask 
you to just share a few seconds about what you see as your 
capabilities and what you could do with the resources if you 
had that shot? What could you do to make it better for the 
people that live in your area?
    Yes.
    Mr. Panos. Senator, if I could start, for us in Wyoming, 
certainly, with surface transportation, which I am speaking 
about today, we would implement more safety projects. Safety is 
our No. 1 issue. And if we can develop additional safety 
projects and put them on the ground, whether that be 
construction of additional lanes or other kinds of safety 
systems, we would. We are maintaining what we have, and that is 
what we have dollars for right now.
    We have a great relationship with the Federal Highway 
Administration, a great relationship with our Federal partners.
    Senator Rounds. Could you start it fairly quickly?
    Mr. Panos. We could. And we have plans to put in place 
because of our great relationship with the Federal Highway 
Administration and others. So, as to surface transportation, we 
would focus on safety. That is our No. 1 issue, and we are a 
safety agency. Probably more than we are a transportation 
agency, we are a safety agency. So we would focus on that.
    Thank you, Senator.
    Mr. McNulty. We would expand water distribution systems and 
wastewater collection systems and build facilities for 
treatment, as well. For instance, we have a project in our home 
county, Putnam County, West Virginia, we have 56 homes without 
potable water. These folks have to haul their water back to 
their home cisterns. Our county commissioners have applied for 
a small cities block grant for the last 5 years for $1.5 
million, and for the last 5 years they have been turned down. 
And that project is designed. It would be ready to go the day 
after the funding got in place.
    Senator Rounds. Thank you.
    Ms. Bobbitt. Thank you, Senator. We would probably look at 
our off-system bridge systems, because we want to make sure 
that we have safe bridges for our school buses, our emergency 
services, ambulances, fire departments. We would want to make 
sure that those routes were brought up to standards. And yes, 
we could do that pretty quick. We have engineering on several 
bridges; we just don't have the funding. So we have shovel-
ready projects ready to go. Thank you.
    Senator Rounds. Sir.
    Mr. Pratt. My perspective, of course, is very different. I 
am not a highway transportation planner, but looking at it out 
of the box because of the scenario you present is very 
dizzying, so I will be dizzy----
    Senator Rounds. I know. It is what I call a fairy tale; 
quick, get it done.
    Mr. Pratt [continuing]. Any of those things would happen, 
but if we did, I think, first of all, the very first thing we 
need as a Nation is a better informed discussion as to how we 
invest in a decadal sense. We are doing investments, I think, 
in short-term very much. I hate to say it. I was an elected 
official in Delaware, in a small town, and we tend to make 
decision on a 2- and 4- and 6-year kind of time frame so we can 
bring something home to our constituents. We really want the 
decadal planning, understanding where the population trends 
are, where the vulnerabilities are, and the value of the return 
on the investment. If we did a better job of that, we would 
know how to utilize the funds that were available if they were 
untethered. So I think we need much better information in the 
decisionmaking process informed by those factors.
    Mr. Bhatt. We lost 35,092 Americans on roadways last year. 
Safety is our No. 1 issue. We are going toward zero debts, and 
we are going the other way, 10 percent increase the last couple 
of years. So I would say safety would be our No. 1 priority. We 
have literally dozens of projects that are ready to go but for 
funding, so funding, if there was a way to find bipartisan 
agreement, would go a long way to saving American lives.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    I appreciate very much our guests here from Wyoming and 
West Virginia and Oklahoma and Colorado, but you all fail to 
share one of Rhode Island's attributes, which is a coastline. 
You are all landlocked. So I would like to address our guest 
from Delaware, who, like Rhode Island, shares a coastline.
    In Rhode Island we have sewage treatment plants that have, 
as we face rising seas along our shores, moved first into the 
flood zone and now into velocity zones for storms. After a 
major storm, I, far too often, have to go and talk to a family 
who is looking at the remnants of their home that has been torn 
into the sea by the storm activity.
    We have coastal roads that are at risk of either 
destruction or flooding, and in many cases the coastal road is 
the access to a community, which creates very significant 
emergency services risks. And as we are mapping more 
effectively where storm and sea level will be intruding, we are 
finding more and more that the emergency services are on the 
wrong side of the flooding area. I think people remember the 
scenario in Senator Booker's State of New Jersey, where they 
couldn't bring the fire equipment in during Sandy because of 
the flooding, and neighborhoods burned with nobody to fight the 
fire. So, you know, we have those concerns.
    I have seaside restaurants, places like Tara's and the 
Ocean Mist, two wonderful bars right side by side on the sea, 
that not long ago had 100 feet of beach, and people would play 
volleyball and sun on the beach; and now they are up on pilings 
and the ocean washes under their buildings. State beach 
facilities are similarly compromised and having to be moved 
backward as we yield more and more of our coastline to the 
shore.
    And of course, in a really major storm, something 
equivalent to the hurricane of 1938, which gave Delaware a 
pretty good hit, but really nailed Rhode Island, the 10 inches 
of sea level rise we have already seen, the 9 feet of sea level 
that our State and Federal experts tell us to expect by the end 
of the century, plus we get about 2 feet, if the wind 
conditions are right, in added tide, plus we get about 2 feet 
in added tide when the moon and the stars all line up, so you 
get an astronomical King Tide, we are really planning for some 
very serious disruptions.
    So I hope that my colleagues, as we consider what our next 
infrastructure investments should be, will understand that in 
our coasts we not only get all the other effects of climate 
change, but we get this rising sea level and then the worsening 
storm surge that compromises our coastlines.
    Let me turn it over to you to comment, because I know 
Delaware has actually, I think you have even lower elevation 
than we do, and a lot of these similar coastal problems. I 
visited there with Senator Coons to hear from your experts, and 
I know he is aware of Rhode Island's, because his dad, who, 
sadly, just passed away, was the head of the Rhode Island 
Fisheries Association for a while.
    So, with that, I leave it to you to talk about coastal 
infrastructure.
    Mr. Pratt. No, your points are well made, and I appreciate 
the opportunity to address it. I am from the Boston area 
originally; I know the New England coastline. You have a lot 
better topography in Rhode Island than we have in Delaware. We 
are very flat. We are very much a remnant of a higher sea 
millions of years ago.
    That said, 1 foot of rise in sea level can be exponentially 
hundreds of feet of intrusion in a landward direction. So what 
do we do? No. 1, I think you hit on it. The NFIP is producing 
much better maps that inform us as to where the risks are going 
to be, where the risks are today, and where they are going to 
be, and we can begin to utilize those in the local communities 
to begin to plan how we can remove critical infrastructure to 
better places.
    I think the best indication of what sea level will be in 
the future is when we have a high tide in its form, when the 
tide is 2 to 3 or 4 feet above the predicted, we see where the 
water goes, and we certainly map where those intrusion areas 
are. We have to do a better job, and that is part of the 
discussion I think we are doing here today, which is looking at 
how we manage the coastlines so that they provide the 
protection they have provided for a long time; optimize what we 
learned in Sandy. There is a comprehensive plan that has been 
developed by the Corps of Engineers for the northeastern 
States. I think if we expand that out to the southeast, the 
Gulf Coast, and eventually the west coast, that kind of systems 
thinking.
    And one of the things that I think ties into my colleagues 
here is we have--particularly in the eastern seaboard, in the 
more urbanized area--we have a tremendous stress on our 
highways for congestion and also a tremendous number of 18-
wheel tractor trailers that are on roadways. New Jersey has 
just taken a lot of money to separate, on the Jersey Turnpike, 
truck traffic from pedestrian or automobiles for other use, and 
I think that is a way that is coming to the future. I think we 
are going to have to look at how the waterways of this Nation 
have to be returned as a means by which we get better 
transportation of goods and services around the coastal area, 
and that means port management, which would produce sediment if 
dredging has to occur to accommodate larger ships and more 
ships and more boats, and sediment should be utilized in all 
cases for benefit of restoring beaches, restoring wetlands as 
much as we possibly can. And we have some institutional 
blockades to that which we have to take on, but I am kind of 
running out of time here.
    Senator Whitehouse. I appreciate it.
    With the Chairman's leave, if I could make one more point 
to the Committee.
    Senator Barrasso. Yes.
    Senator Whitehouse. This isn't a question that requires an 
answer.
    One of the things that we have discovered in Rhode Island, 
as we have tried to develop the tools to be able to anticipate 
what storm surge and rising seas present by way of risks to us, 
is that the FEMA mapping of this has been, frankly, outright 
defective, and that as we look at it we find that FEMA is 
unable to replicate--when it has to go back and do it again--
the results that it claims are solid. If you can't go back and 
replicate a result, it is probably not very solid. We see them 
making premise decisions in their mapping that don't make any 
sense. We see them operating off of facts that are proveably 
not accurate.
    And the result is that very often we find people put into 
flood zones that aren't really going to be flood zones, in 
which case they have to buy insurance that may not be 
necessary. But far worse, you find people who are not being 
told that they are in a flood zone. And the discrepancies 
between what our university and our coastal resources center 
are doing and what the FEMA maps show are really considerable, 
and I hope that at some point some of our more coastal folks 
might join together in taking a hard look at that because a lot 
of people are going to be really disappointed by being let down 
by defective and erroneous flood mapping.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman, and thanks for our 
panelists for being here today. This really has been a helpful 
discussion. We have a number of members that come from those 
coastal areas, and it is a great discussion.
    What I want to point out in my question, and I will start 
with you, Mr. McNulty, is that a Federal Government one size 
fits all approach simply doesn't work. I come from Iowa. I am 
landlocked. I don't have oceanfront property. And let me dig 
into why I think there needs to be a little bit of difference 
in the Federal Government.
    One of Iowa's top infrastructure priorities is flood 
mitigation. We have heard a little bit about flood mitigation 
here. Our second biggest city in Iowa went through two major 
flood events, 2008 and 2016, and to date they have not received 
any construction funds despite being authorized in the 2014 
WRDA bill and again mentioned as a priority in the 2016 WRDA 
bill.
    A few months ago I had a meeting with the head of the 
Corps, and we had a conversation about the process. The Corps 
and the Office of Management and Budget used to budget for 
flood mitigation projects. I expressed to him that communities 
like Cedar Rapids, Iowa, and States like Iowa will likely never 
see Federal assistance from the Corps because they lose out 
every time to larger States that have higher property values 
and thus higher economic benefit.
    I am really interested in improving these metrics so our 
rural communities have a fighting chance at tapping into Corps 
expertise, because if the only metric the Corps uses to 
determine the economic benefit of a project is property value, 
then it is hard for me not to conclude that the Corps considers 
building beaches in front of multi-million oceanfront homes to 
be a higher priority than protecting the people that live in 
Iowa.
    It was also suggested to me in my meeting with the Corps 
that because Iowans have a pick yourself up by the bootstraps 
attitude and we work very well together in our communities to 
properly mitigate, we move farther down the list of priority, 
and we are basically being penalized for being proactive.
    So my question for you, Mr. McNulty, is how can we work 
together to improve or broaden the metrics the Corps uses to 
give our rural communities a fighting chance at Federal funds?
    Mr. McNulty. Perhaps my colleague, Mr. Pratt, might be able 
to answer that just a little better than I can when it comes to 
flood mitigation.
    Senator Ernst. OK. I am willing to listen. Thank you.
    Mr. Pratt. Well, certainly, I am coming from one of those 
States that has rich valuable oceanfront properties, and I 
certainly understand the position you are coming from. I will 
say this. In my dealings with the Corps, even from the State of 
Delaware with oceanfront, there is a lack of funding to do even 
a lot of the work we have to do. I mean, it sounds like we do 
get a lot of money, and as my testimony indicated there is a 
tremendous return on that investment. And I don't think that 
the Corps' metrics right now take into account the full range 
of benefits in any front of flooding, whether it is ocean or 
Gulf Coast or whether it is riverine or it is snow pack melting 
in the Sierras this coming spring.
    I don't think the metrics are there. I don't think the 
Corps has the ability to give an informed discussion to anybody 
as to the full range of benefits. There could be recreational 
benefits. My understanding of the Corps process and what they 
have been doing in Delaware is that they look at not the 
personal property value, but they look at the infrastructure at 
risk, the density of infrastructure, the utilities, the roads, 
the waterways, the electrical delivery system, and what the 
overall effect is if that fails during a storm.
    And we have--as the Senator indicated--we have not only 
still water flooding, we also have velocity water, and that was 
certainly the case in Sandy. Had we only had still water rising 
issues, that would have been one thing in New Jersey and New 
York; it is a totally different thing when you have waves 3 
foot, 5 feet, 6 feet washing through structures, and one 
structure falls into the next to the next to the next.
    So I think the Corps certainly needs a liberalization of 
its analytics on how the benefits accrue and inform the 
discussion. I don't know your State's needs, but I certainly 
think that that is something that nationwide the Corps' process 
of deliberation and how they develop the benefit-cost ratio, 
because that is what they predicate their spending on, is the 
higher the benefit-cost ratio. And if you are at the high 
tipping end of that, then you are going to get some funding; 
and if you are at the lower tipping rate of that, then you are 
not going to get any funding. And that is what we have to 
uncover, is what goes into that benefit side.
    I have often stated all costs, up to the penny, of all 
Corps projects are calculated right down to the penny. The 
benefits we probably leave 50 to 80 percent of them on the 
table. I think we need better information.
    Senator Ernst. I think so. I think the one size fits all 
approach isn't working because every community is different. If 
we see all the Federal funding going to areas on the coasts, it 
is really hard for me to go back home and justify why the 
safety of the people in Cedar Rapids is not as important as the 
safety of people and livelihood of people that live on the 
coasts. So thank you very much.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator Ernst.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    I want to thank this panel, too. I concur with my colleague 
and friend from Iowa; this is a very valuable discussion, and I 
really, really do appreciate it.
    I have really big concerns about our Nation's water 
infrastructure, especially as it affects rural areas in 
America, as well as some of the poor areas. It is the kind of 
thing that a lot of the natural private sector incentives don't 
often provide for us being built out, and as a result of that 
you see real challenges for families around this country about 
getting access to clean, safe water.
    So maybe I will start with Michael McNulty. You talked in 
your testimony that we have families in many parts of this 
country, and I believe in West Virginia as well as New Jersey, 
that lack the proper facilities. And according to the Census 
Bureau, when it comes to these water facilities, they say that 
500,000 homes around the country lack access. Five hundred 
thousand in America, the richest country on Planet Earth, lack 
access to hot and cold running water or a bathtub or a shower 
or a working, flushing toilet.
    Now, that, to me, is astonishing data. It includes about 
11,000 homes in New Jersey and portions of rural Alabama that 
are home to low income, predominantly black communities. Less 
than half of the population is connected to a municipal water 
system.
    Many of these families' septic systems fail, and they are 
forced to dump sewage behind their homes, which brings up a lot 
of very serious health problems.
    In addition to tainting the water supply in general and 
harming the local environment, this is a leading spread of 
intestinal parasites such as hookworm. A lot of these parasites 
are really not thought to even exist in the United States of 
America, but still exist in a lot of these communities in rural 
areas.
    So I was a former mayor, and these were issues that I was 
dealing with all the time, and it can be difficult, very 
difficult for cash-strapped cities, municipalities, rural and 
urban, to fund projects based off of only loans, which are 
essentially just low interest debt, especially in a lot of 
these lower income rural areas and urban areas that don't have 
the kind of high revenue streams or tax base that can support 
the kind of work.
    I believe the answer has to be more grants and grant 
programs. As you know, currently a State can use no more than 
30 percent of the total amount that it receives from the Clean 
Water State Revolving Fund on direct grants, and I am wondering 
would you support removing that 30 percent cap and letting 
States provide more clean water grants to communities with 
demonstrated financial need?
    Mr. McNulty. Absolutely. Let's remove those restrictions.
    Senator Booker. And if we were able to remove that 
restriction, can you just give an idea of what impact that 
would have for these struggling rural and urban cash-strapped 
communities?
    Mr. McNulty. You know, in West Virginia, as many folks 
know, we have a $500 million deficit in our budget coming up, 
and with the decline in the economy, especially with their coal 
severance tax, so communities no longer have the funds to 
contribute toward projects like they once did. By removing that 
restriction and possibly even lengthening the time that the 
loan could be paid back, communities could do so much more. We 
wouldn't have to rely on local partners much, where they are 
cash-strapped. So it just would add tremendous benefit across 
the country.
    Senator Booker. So maybe on that point, because I do know 
that for me, when I was mayor and trying to manage things, even 
lowering the cost of loans really helped us to do a lot of 
projects.
    But perhaps for you in my last question, Bill Panos, there 
is a lot of talk about a $1 trillion infrastructure package 
right now. My worry is if that is much more about low interest 
loans and not about direct grants. And the thing that I know, 
for those of us who are concerned about debt and deficits, that 
we have to understand that investments in infrastructure 
actually create a multiplier effect in economic growth.
    So I just want to know, maybe for the last 20 or so seconds 
that I have, would you just comment on the power of having an 
infrastructure package that did include direct Federal 
investments, not just loan programs? Is that something that you 
would say is important to have, a balance in that 
infrastructure of direct Federal investments, especially in 
areas that can't afford even the low interest loans that would 
need some Federal resources invested in their communities?
    Mr. Panos. Speaking for surface transportation in rural 
States, yes, direct investment does help, especially with 
States that have, rural States like Wyoming, that have low 
volumes and don't have the kind of revenue generation that 
other States do. So, yes.
    Senator Booker. Thank you very much.
    Mr. Chairman, thank you.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Boozman. Thank you, Mr. Chairman, and thank you and 
the Ranking Member Senator from Delaware for having this very, 
very important meeting.
    We appreciate you all being here.
    Ms. Bobbitt, as one of Arkansas's largest industries, 
agriculture is crucial to the State's economy. Arkansas is home 
to 44,000 farms, generating an economic benefit of $20 billion 
a year and employing one out of every six Arkansans. I believe 
investing in infrastructure will help create jobs, keep 
commodity prices low, and help us remain competitive on the 
global stage.
    Can you explain how a reliable and efficient infrastructure 
system helps industries such as the agricultural industry 
remain competitive?
    Ms. Bobbitt. Thank you for that question. Excellent 
question.
    Senator Boozman. We like you unless we are playing you at 
something.
    Ms. Bobbitt. Yes, I agree.
    Senator Boozman. As your neighbor.
    Ms. Bobbitt. You are right.
    Yes. If you think of the United States map and consider it 
a puzzle, and each piece of the puzzle is a county, and that is 
3,069 pieces in that puzzle, and it connects, and if you take a 
piece out of that puzzle, it is not complete. Well, it is the 
same thing with our roads and our bridges, and we all have to 
connect because while we grow the agriculture products in our 
States or in our rural counties, it has to be delivered to the 
urban areas. So it is very important that we all work as a 
partnership and make sure that we can deliver our foods and our 
fiber to the urban area. It is not rural versus urban; we are 
in this together. We are one piece of the puzzle.
    Senator Boozman. Right.
    Ms. Bobbitt. Thank you.
    Senator Boozman. And the second part was going to be what 
are the repercussions of the fix as it fails strategy that we 
are using now. And as you point out, you can have great roads 
in Oklahoma or great inland waterways or whatever, but if you 
can't get there or get out of there, it really does all go 
together.
    Ms. Bobbitt. Again, that is correct. We don't have blue 
roads, and we don't have red roads; we have roads and bridges. 
So it is a partnership, and it does need to be. The same trucks 
that come down the interstates and the highways get off on our 
county roads, and we have to get our food and fiber off the 
rural area and into the counties or into the urban areas.
    Senator Boozman. Right, especially as you look to what the 
futurists tell us that America is going to have to do as far as 
feeding the world 20, 25 years as we go forward.
    Mr. McNulty, according to a recent Michigan State report, 
water prices across the country have risen by about 41 percent 
since 2010, which really is an amazing statistic. If this 
particular trend continues, it is estimated that 35.6 percent 
of American households will not be able to afford water 
services within the next 5 years. In your professional opinion, 
what kind of effect will rising water prices have on a rural 
State such as Arkansas?
    Mr. McNulty. It will be hard. It will be hard for the 
citizens because they will begin to cut back their use of 
potable water. But that will not change the debt service 
requirements that are on those systems. So you are in a Catch-
22; folks are thinking, well, I will reduce it and save money, 
and then the water system is like, well, I can't make my debt 
payment, so we are going to have to continue to raise rates. So 
I think it will be a very challenging time for rural water 
systems.
    Senator Boozman. So tell me about--in the next 
infrastructure bill that we do, do you feel like it is 
important, then, to address affordability?
    Mr. McNulty. Absolutely. Affordability has to be one of the 
primary factors when considering when you are funding a project 
in this country. What can people afford? You know, we talk 
about folks that already have potable water and sanitation, 
then the folks that do not have any at all, no access. So those 
folks are typically going to be in rural America, much lower 
income.
    Senator Boozman. So we are really kind of in a Catch-22 
situation, as you mentioned. Again, the EPA, sometimes 
rightfully so, sometimes very, very aggressively trying to get 
the last little bit out that is so expensive as far as our 
point sources and things. That raises rates, as you make it 
such that you remedy that. But then, as you point out, you are 
in a situation where people actually don't use as much water, 
so then that raises rates further.
    Mr. McNulty. It certainly can.
    Senator Boozman. Very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank all of our witnesses. To me, this is one of 
the most important subjects we have to deal with as an area 
where we can get Democrats and Republicans working with this 
Administration to get things done.
    As Senator Carper pointed out in his opening comments, we 
are not proud of the fact that we get a D on infrastructure. 
When you go to any other country, just about, certainly in the 
industrial world, and see the way that they deal with 
transportation versus the way we do, we need to invest more. I 
think the number is $1.6 billion the American Society of Civil 
Engineers said we need in regards to our surface 
transportation.
    Mr. Chairman, I just really want to underscore the point 
that you made in your opening statement about rural areas 
versus urban areas. In Maryland, I can tell you the Appalachia 
Highway System program now, which has been rolled into the 
overall surface transportation programs, is absolutely vital 
for job creation in western Maryland. The north-south highway, 
which is important for the people of West Virginia, 
Pennsylvania, and Maryland, is critical to their economic 
future, and it doesn't come without a cost. There is an initial 
cost, but you get it back by economic growth.
    So, yes, I-81, which is very important for the Washington 
County part of western Maryland, is a vital link which we are 
trying to get some fast lane grants for, but we need more 
money. And with Senator Carper on the eastern shore of 
Maryland, I think he would agree with me that a lot of people 
want to get to our beaches, and there is a real issue of safety 
in getting through the eastern shore of Maryland and Virginia 
and Delaware, and they are expensive to do these highway 
projects, and we need to do it.
    In the urban areas we have our challenges. I live in one of 
the most congested corridors in the country, one of the most 
congested corridors literally in the world, the northeast 
corridor, and we need to invest in ways to deal with this. I 
want to get Senator Carper down here easier than his Amtrak 
ride every day. We could make that a little faster for him if 
we had modern high speed rail.
    It was interesting. I had my staff go back, and it was 
Senator Moynihan who advocated as a member of this Committee 
back in the 1990s for inclusion of MAGLEV in the highway bill. 
MAGLEV has been here for a long time. Japan has a system that 
carries many thousands of passengers at world record speeds of 
361 miles per hour, and Japan is now planning another 300 miles 
of MAGLEV route between Tokyo and Osaka to carry 100,000 
passengers.
    I mention that because that is what other countries are 
doing, and we are still stuck in technology that is really kind 
of old. So we do need the capacity to modernize our 
infrastructure system.
    I know that Prime Minister Abe will be here this weekend, 
and he is going to talk to President Trump about partnerships 
that could be done with Japan to advance MAGLEV technology that 
could help our northeast corridor in dealing with some of these 
issues, so there are real opportunities here.
    But let me just take my remaining time with Mr. Pratt to go 
over the water issues. I agree with Senator Boozman, 
affordability is the key issue on our water. Our water 
infrastructure needs, the number I have is about $655 billion 
over the next 20 years in order to modernize our wastewater and 
clean water supplies. We have 240,000 water main breaks a year, 
costing literally billions of dollars in waste. So a more 
efficient system would help everybody.
    But if you are talking about affordability, then you need 
support, public support to deal with the water infrastructure. 
If you put it all in the rates or you look for public-private 
partnerships, which I am for, but there is going to be a cost 
to the consumer in the public-private partnership if you can 
make money off the project. So we really need a stronger 
commitment for the basic programs, the revolving funds, et 
cetera, so that we can modernize our water infrastructure, make 
it more efficient without an excessive burden on the ratepayers 
who are middle income families who can't afford it.
    I would like to get your experiences that you have seen.
    Mr. Pratt. Of course, I am coming at this from a 
perspective of a natural resource manager, but certainly it is 
within the realm of what my sphere of exposure is involved in. 
I think it is an overarching issue that the public is not 
aware, sometimes, of the risks of ignorance that we have put 
ourselves in, and that is at the Federal and State level. We 
have ignored problems we have known about for a long time, 
whether it is a coastal hazard, as Senator Booker was talking 
about earlier and others. We have exposure to a number of 
risks, certainly water supply, water distribution, 
transportation systems, the infrastructure that protects those.
    I don't think we have informed the public well enough. The 
imperative is not out there to the degree that it should be to 
get a public movement behind that investment, and I think we 
have to tell the story better. My reaction is basically we need 
to be very gut-honest about how impoverished we have been in 
maintaining our infrastructure systems and how much more work 
we have to do in an ever increasing population with demands on 
limited resources.
    Senator Cardin. I thank you for that answer. I will point 
out that this Committee will hear a great deal from me on the 
Chesapeake Bay and what we need to do, and I appreciate 
Delaware's leadership on that. How we deal with wastewater is 
very much a critical factor in how we deal with the Chesapeake 
Bay, and dealing with shorelines and the way erosion takes 
place is very much a part of this overall strategy. So I thank 
you for your answer.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Sanders.
    Senator Sanders. Mr. Chairman, thank you very much, and 
thank you for holding this really important meeting in an 
increasingly contentious political environment in the Senate 
and around this country. I would hope very much that on this 
issue there could be a coming together to address what almost 
everybody understands is a national crisis. So thank you very 
much for holding the hearing, and I look forward to working 
with you.
    Let me just talk about Vermont for a second. Vermont's 
roads need an additional investment of $700 million a year to 
get into a state of good repair. Vermont, small State. The only 
reason Vermont is now in 28th place in the Nation for road 
condition is because we had to rebuild after Hurricane Irene, 
which knocked out a lot of our bridges and our roads. So we 
invested a lot. But I would hope we can go forward in 
rebuilding our crumbling infrastructure not as a result of 
disasters, but being proactive in it.
    We are the richest country in the history of the world. We 
used to, Mr. Chairman, lead the world in cutting edge 
infrastructure. We were No. 1. That is no longer the case; we 
are now behind many, many other countries. And the result of 
that is loss of productivity, the result of that is the loss of 
safety. Too many accidents occur because of a crumbling 
infrastructure. And the result of that is the loss of economic 
potential in jobs.
    So when we talk about rebuilding our crumbling roads and 
bridges and water systems and wastewater plants, I had the 
opportunity to be in Flint, Michigan, a year or so ago, and 
what I saw there made me disbelieve that I was living in the 
United States of America. But it is not only the water in 
Flint, Michigan; we have failing water systems all over this 
country.
    We used to lead the world in terms of our rail. Today we 
are behind Japan, behind China, behind many, many other 
countries.
    So, Mr. Chairman, I think that there is bipartisan 
agreement that we have not invested in our infrastructure, and 
I think there is bipartisan understanding that when we invest 
we create jobs.
    Now, a couple of years ago I brought forth legislation 
called the Rebuild America Act, and I proposed a $1 trillion 
investment, and at that point that was thought, by Republicans 
and Democrats, to be a wild and crazy idea. But I am glad--I 
think there is an understanding that given the depth of the 
problem, given what the American Society of Civil Engineers 
tells us in terms of a need to invest $1.6 trillion above 
current spending levels, that $1 trillion is in fact a 
reasonable amount of money.
    And when we do this not only do we create a Nation that is 
more productive and safer; we also create up to 15 million 
jobs, and jobs in areas where we need them, and one of the 
areas certainly in rural America has to do with broadband.
    So, Mr. Chairman, I want to put in a plug for broadband as 
part of our infrastructure, with the understanding that any 
small town in Wyoming or a small town in Vermont, you are not 
going to attract businesses. Kids are not going to be able to 
do well in school unless we have access to high quality 
broadband. So this is a proposal that makes sense on many 
levels, and I think there is bipartisan support.
    Where the difference of opinion is going to come, I think, 
which is outside of the jurisdiction of this Committee, is how 
we fund the trillion dollars. I am not sympathetic to giving 
huge tax breaks to Wall Street or the large multinational 
corporations who invest in our infrastructure. That is not the 
way we should be going, in my view. I think interest rates are 
very low now. I think it is appropriate that in a Nation which 
is spending $650 billion on the military, yes, that over a 10-
year period we can invest $1 trillion in rebuilding our 
infrastructure, which will pay for itself by job creation and 
increased tax revenue.
    So I would just like to ask, and I apologize for not 
hearing any of your comments, but somebody, maybe the gentleman 
from Wyoming, about the needs of rural America. Wyoming is 
different from Vermont, but we are both very rural States.
    Where would you like to see infrastructure investment 
going?
    Mr. Panos. I can speak for surface transportation in 
Wyoming and say that any proposal that brings forward something 
that we can take advantage of as a rural State is a positive 
thing. P-3s and other kinds of borrowing doesn't work in 
Wyoming, doesn't work in rural States, because we simply do not 
have the revenue generation to be able to support that kind of 
thing. So any proposals that move forward are helpful.
    The second thing I would say is the existing formula 
system, the formulaic system for delivering those dollars, 
those Federal dollars to rural States works; and yes, there 
could be improvements in project delivery, yes, there could be 
improvements in having flexibility for States, but those 
systems do work. So enhancing moneys to those existing delivery 
systems would be very positive for rural States like Wyoming.
    Senator Sanders. Thank you, Mr. Panos. Let me ask you this. 
In Vermont, with a few exceptions, and we are expanding it a 
little bit, if you live in a more rural area, and you want to 
get to work in a more urban area--I use those in quotes because 
our largest city is 40,000--the only way to do it is by an 
automobile. And I think we need to build up our rural bus 
system as well. Do you have problems with that in Wyoming? Can 
people get to work in other ways than through an automobile?
    Mr. Panos. Through our Federal funding programs, we do have 
a transit program through the Department of Transportation that 
connects us, the State government, with our local governments, 
counties and cities, to provide senior transportation, to 
provide----
    Senator Sanders. Just senior. But if I am a worker in an 
area, and I want to get to work other than by automobile, in 
Vermont it is pretty hard to do. Is that the case in Wyoming as 
well?
    Mr. Panos. It is hard, but not impossible. We also have 
private sector agreements with some of our largest energy 
producers that also have transportation for their workers to 
come from cities. So we have some of that in Wyoming as well. 
But it is different than needs in some of the other States that 
are not like Vermont and Wyoming. It is different than the 
needs in New York or some other places.
    Senator Sanders. Absolutely. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sanders.
    We are going to go to a second round, just a couple of 
quick questions that we have.
    From a Colorado and Wyoming standpoint, the testimony 
mentions the need for direct Federal investment in highways. I 
agree. I was chairman of the Transportation Committee in the 
Wyoming State Senate before getting elected to this position.
    Before Congress increases funding, I think it is critical 
that we show the American people we are actually being 
efficient with the current levels of funding, so are you aware, 
from a Colorado-Wyoming standpoint, of any actions that 
Congress could take to make the projects less costly to ensure 
that the current spending is efficient as possible? Are there 
unnecessary burdens and expenses that you have to deal with 
that we could just get more bang for the buck?
    I don't know; Mr. Bhatt, if you would like to start, and 
then Mr. Panos.
    Mr. Bhatt. Thank you, Senator, and thank you for your 
career work in this transportation field. I think that I hear 
this a lot from folks, you know, what can the Federal 
Government do, what can State governments do, what can locals 
do, what can we do better. Maybe it would be useful to have a 
cost-benefit analysis done by Congress to come in, and from a 
non-partisan viewpoint just say what are the costs that are 
imposed by some of these regulations or by some of these 
processes, and what are the benefits, because I think that some 
people view costs and benefits very differently, and I think it 
would be useful to understand where there are necessarily 
benefits and where there are actual costs that are slowing down 
the system. And then, at the end of that, everybody just says, 
OK, it was bipartisan, so in a bipartisan way we will implement 
it. I think that might be a useful exercise.
    Senator Barrasso. Mr. Panos.
    Mr. Panos. Mr. Chairman, I would say that reducing program 
delivery burdens would be helpful for us. I will give you an 
example. We have a project in the northern part of our city of 
Sheridan, called the North Sheridan Project; it is an 
interchange project. Fourteen years for us to develop the 
planning, permitting, and program delivery, about 2 years to 
complete. And this is a safety project for our commercial 
traffic that is moving through that part of our State. So 
anything that we can do to deliver projects quicker, that is a 
good thing.
    Improving States' flexibility and also improving our 
flexibility in the use of some of our infrastructure. Let me 
give an example. The Senator had talked about broadband, and 
one of the things that we do in Wyoming is we are engaged in a 
broadband infrastructure project, as the Chairman knows, and we 
use our rights-of-way along the sides of our highways to run 
our broadband lines. That single decision has created an 
accelerated broadband infrastructure throughout the State of 
Wyoming. So that single decision, that single flexibility 
allowed us to do more things with the existing infrastructure 
that the Federal Government is funding in our State.
    Senator Barrasso. And then a final question that follows up 
with what Senator Sanders was talking about about rural States, 
could you talk about how Federal investment in transportation 
projects in rural States also can benefit urban States?
    Mr. Panos. Yes. There are a couple of things. One is the 
national connectivity benefit. Truck traffic through Wyoming 
starts in the West Coast and goes to Chicago or goes to East 
Coast cities. This is a national benefit. The idea that we 
invest in those interstate highways will help commerce at both 
ends of the trip.
    The other is, again, as I think we stated in my written 
testimony, these highways in rural States bring product to 
market; they bring agricultural products, they bring forest 
products, they bring energy products to markets that they need 
to go to. So there is a strong benefit there to urban areas by 
investing in rural States.
    Finally, in both my opening statement and in my written 
testimony I mentioned tourism. These roads bring millions of 
visitors to Yellowstone National Park and Mount Rushmore every 
year. These are dollars that are spent in America, tourism 
dollars that are spent in America, and not in Europe or Canada 
or some other place; and the reason is they can get there, and 
they can home safely. And the only way that they can get there, 
as the Senator from Vermont had pointed out, is a highway, is 
by car. So investing in rural States helps urban areas and the 
Nation in those respects.
    Senator Barrasso. Thank you, Mr. Panos.
    Senator Carper.
    Senator Carper. Thank you very much.
    I had a special interest in that question and your answer. 
I thank you. I will just scratch that one off my list.
    We have a history in this country of a user pay approach; 
those who use roads, highways, bridges pay for them, directly 
or indirectly. Is that an approach that we should generally 
stick with or move to something else, Mr. Panos?
    Mr. Panos. In Wyoming, with our surface transportation----
    Senator Carper. Very brief. Very brief.
    Mr. Panos [continuing]. We have a mix of user fees, 
registration driver's license fees, and what you had referred 
to earlier, the tax. All of that adds up to only about 30 
percent; 50 percent comes from the Federal Government, and then 
the other 20 percent or so comes from a variety of different 
sources.
    Senator Carper. I didn't ask you for the mix. I asked is 
the idea of user fee approaches, something we have done 
forever, is that something we should move away from? We can 
borrow money to do all this; we repatriate money from overseas 
for multinational corporations. Should we stick with the user 
fee?
    Mr. Panos. I apologize for answering with a mix. Yes, 
moving toward user fees is helpful.
    Senator Carper. Thank you.
    I know you are water, but any thoughts on user fees, user 
pays? I realize in some places it is a hardship, especially in 
very poor communities.
    Mr. McNulty. Well, Senator, we are certainly doing that now 
through rates, so that is the approach we have across the 
country. You know, it is not just 100 percent grant funded in 
many cases; and even if it is you still have to have user rates 
to pay for O&M.
    Senator Carper. OK, thanks.
    Same to you.
    Ms. Bobbitt. Thank you, Senator. Yes, we definitely support 
user fees. In Oklahoma we had gas taxes, as we do on the 
Federal, and in our wisdom in the dirty thirties, they robbed 
our transportation funds and used it for other things, and now 
we can't support it. But user fees, people are always willing 
to support user fees. Thank you.
    Senator Carper. Thank you.
    Tony, I know this is not really up in your alley, but any 
comments before I go to Shailen?
    Mr. Pratt. Well, I do have one thing, if I could.
    Senator Carper. Very briefly.
    Mr. Pratt. The Highway Maintenance Trust Fund is a good 
example of a user fee that is not being applied to what it 
would be used for, and that would be something else to keep in 
mind in this discussion.
    Senator Carper. Thank you.
    Shailen.
    Mr. Bhatt. Yes on user fees, and I would say that users are 
already paying higher taxes in an unintelligent fashion because 
they are sitting in congestion, they are paying more for goods, 
and so the user is----
    Senator Carper. Paying for repairs of their personal 
vehicles.
    Mr. Bhatt. Yes.
    Senator Carper. Another follow up, if I could, for you, Mr. 
Secretary, Secretary Bhatt. Colorado, one of the fastest 
growing States in the country in terms of population. I am told 
your population is expected to increase by nearly half in the 
next 25 years. And much of the population growth is anticipated 
to be in the greater Denver area, but also the urban centers. 
What challenges do growing urban areas face in Colorado and 
other places? How are you planning to ensure mobility for a 
larger population there?
    Mr. Bhatt. Thank you, Senator Carper. We have an 
infrastructure that was designed in the 1950s, built in the 
1960s, for a population of 3 million people in Colorado. We are 
at million people now. We are going to 8 million people in the 
next 20 years, and I can't build my way out of congestion in 
Denver.
    Senator Carper. What do you think, contraception?
    [Laughter.]
    Mr. Bhatt. Possibly.
    Senator Carper. That would be a unique use of the 
Transportation Trust Fund.
    Mr. Bhatt. Yes, planned transportation is where we need to 
go. But you used the word mobility. I think that whether it is 
in a car, in ride sharing, in transit, in multi-modal, I think 
that in the urban areas. I can't widen I-25 to the 15 lanes 
that it needs because we will just never do it. If we don't 
have the money, we won't have the environmental clearance. So 
it is not just about widening roadways in our urban areas, but 
in our rural areas. It is just not a one size fits all, as 
Senator Ernst talked about.
    Senator Carper. All right, time has expired.
    Mr. Chairman, great hearing. Great panel. Thank you all so 
much.
    Senator Barrasso. Thank you very much, Senator Carper.
    Senator Sanders.
    Senator Sanders. Thank you, Mr. Chairman.
    There are some people who think that we are looking at a 
looming water crisis in this country in terms of being able to 
deliver clean water to the people of America. Are they right in 
their concerns? Can somebody comment on the situation of making 
sure we get clean water to people in this country?
    Mr. Pratt. I am the closest person for that. It is not my 
bailiwick, but I will say that we look at water resources 
across the Nation. There were some questions earlier today 
using problems we have had around the Nation already, in 
Madison and other locations, and I think we have an aging 
infrastructure in the water delivery system, as well. Water 
pollution from septic systems is polluting our bays. Senator 
Cardin mentioned about the Chesapeake Bay problems.
    And the simple answer, Senator, is yes, we do have a 
looming problem. I think it is something we need to look into 
and inform the public as to what the risks are. I have heard it 
referred to as patching holes with gum and tape as best we can, 
but we need to do a lot better, and it should very much be a 
part of this discussion.
    Senator Sanders. Further discussion on water? Anyone want 
to comment on it?
    Sir.
    Mr. Bhatt. I would just say in Colorado water is 
everything, you know, where it comes from, how it gets 
disbursed. So while I do transportation for a living, I think 
that a lot of our growth that we talked about, if there is not 
clean water and water supply in Colorado and the rest of the 
country, then why are we doing any of this?
    Senator Sanders. Right.
    All right, next question is rail. When we look at 
infrastructure, is it appropriate to look at rebuilding an 
aging rail system, which now, in many ways, lags behind other 
major countries around the world? Am I right on that or wrong 
on that?
    Yes.
    Mr. Bhatt. Sir, prior to serving in my current role, I was 
the Secretary of Transportation in Delaware, served on the 
Northeast Corridor Commission. Senator Carper, a long advocate 
for rail. I think it is ridiculous that in the U.S. we don't 
have the rail as an option in urban areas where we have the 
density that is similar to that in Japan or other urban 
networks in Europe.
    The efficiency is there; there is transit-oriented 
development that comes out of it. We have a lot of sprawl 
caused by a car culture that needs to be addressed. Some urban 
centers are doing it, but there are certainly corridors in this 
country that could benefit, whether it is through new 
technologies like MAGLEV or Hyperloop, but rail investment is 
certainly something that is lagging in this country.
    Senator Sanders. And in terms of climate change, keeping 
trucks off the road and investing in cargo moving through rail 
would also be of help, would it not?
    Mr. Bhatt. I think one of the best commercials I have ever 
seen was one of the freight commercials that said we move a ton 
of freight with a gallon of diesel. I forget. I am butchering 
that completely.
    Senator Carper. It is a ton of freight from D.C. to Boston, 
one gallon of diesel fuel.
    Mr. Bhatt. I set that up nicely for you, sir.
    [Laughter.]
    Mr. Bhatt. So, yes, from a climate impact statement, it 
just makes a lot of sense. We talk a lot about passenger, both 
cars and moving people around, but freight is an incredibly 
important part of that, and passenger rail can help solve a lot 
of that problem as well.
    Mr. Pratt. If I could just add one thought to that. I 
worked on the Regional Sediment Management Plan for the 
Delaware Bay and Estuary, and in that capacity worked with a 
colleague from the State of New Jersey, a transportation 
planner, and he and I had a lot of private conversations, and 
he talked about New Jersey being a particularly congested State 
that the highway system is already obsolete. As best as they 
can try to stay ahead of it in the very urbanized corridor of 
the Route 95 corridor, and we have to go back to relying upon a 
tri-modal transportation surface system, which includes 
obviously rail, waterway, and roads.
    So if we don't embrace that, if we don't embrace all three 
options--and I know a previous secretary of transportation, 
Anne Canby, who was there before Secretary Bhatt, talked about 
we have a lot of chicken going out of Delmarva and empty cars 
coming back, and we have coal comes down and we have chicken 
cars going back, how we can utilize these cars a lot better on 
rail tracks.
    Senator Sanders. All right. As somebody who believes we 
should move aggressively to wind and solar and sustainable 
energies, do we have an electric grid capable of supporting the 
movement to sustainable energy? Anyone want to comment on the 
State of our electric grid? Any thoughts on that? No? OK.
    All right, Mr. Chairman, thank you very much.
    Senator Barrasso. Thank you very much, Senator Sanders.
    I would mention that Bill Gates, this past year, has his 
reading list, and one of the books that he recommends reading 
is The Grid. He has met in the past with members of some of----
    Senator Sanders. I thought you were going to say he was 
going to read my book.
    [Laughter.]
    Senator Barrasso. I didn't see your book on his list of the 
best. There was one called String Theory, but I don't think 
that was your book. No, thank you. Would you like to plug the 
book shamelessly right now?
    [Laughter.]
    Senator Barrasso. Well, if there are no further questions, 
members may submit follow up questions for the record. The 
hearing record will be open for 2 weeks.
    I want to thank all the witnesses today for being here, for 
your time, your testimony. I think it was very helpful.
    The hearing is adjourned.
    [Whereupon, at 12:18 p.m. the Committee was adjourned.]

                                 [all]
</pre></body></html>
